<html>
<title> - NCLB REAUTHORIZATION: MODERNIZING MIDDLE AND HIGH SCHOOLS FOR THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 110-702]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-702
 
NCLB REAUTHORIZATION: MODERNIZING MIDDLE AND HIGH SCHOOLS FOR THE 21ST 
                                CENTURY

=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING NO CHILD LEFT BEHIND REAUTHORIZATION, FOCUSING ON MODERNIZING 
          MIDDLE AND HIGH SCHOOLS FOR THE TWENTY-FIRST CENTURY

                               __________

                             APRIL 24, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate




                   U.S. GOVERNMENT PRINTING OFFICE
35-072 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, APRIL 24, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
    Prepared statement...........................................     2
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
    Prepared statement...........................................     5
Balfanz, Robert, Associate Director, Talent Development Middle 
  School Project, Baltimore, MD..................................     6
    Prepared statement...........................................     9
Wise, Bob, President, Alliance for Excellent Education, 
  Washington, DC.................................................    14
    Prepared statement...........................................    16
Habit, Tony, President, New Schools Project, Raleigh, NC.........    22
    Prepared statement...........................................    25
Varner, Edna, Senior Program Consultant, Hamilton County Public 
  Education Foundation and Public Schools, Chattanooga, TN.......    30
    Prepared statement...........................................    33
Podesta, John, President and CEO, Center for American Progress, 
  Washington, DC.................................................    40
    Prepared statement...........................................    42

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    National Middle School Association...........................    60

                                 (iii)


                   NCLB REAUTHORIZATION: MODERNIZING



                    MIDDLE AND HIGH SCHOOLS FOR THE



                              21ST CENTURY

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room SD-628, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Bingaman, Murray, Brown, Enzi, 
Burr, Isakson, and Murkowski.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. First of all I want to thank 
all of our panelists for getting their testimony in. You know, 
we have a rule around here, sort of like a school day, you 
know, you have to get your homework in. All of you got them in 
at the end of last week, and I had a chance over this weekend 
to get through them all. They are just superb, just superb, all 
of them. They really capture, I think, the challenge in 
education with a lot of very good constructive and helpful 
recommendations. I want to thank all of you. I'll come back to 
particulars--and enormously informative. I find very, very 
informative information and facts that were just incredibly 
useful and helpful.
    I'll just be very brief and put my statement in the record. 
The challenge that we're facing in K through 12, is the obvious 
focus that No Child Left Behind spent on the early years. 
However, we don't get into the middle schools and what's 
happening in the middle schools and the high schools. We spend 
our life in the early years and miss what is the basic and 
underlying, I think, goal that all of us are interested in. 
That is having children that are taking advantage of 
opportunities and developing skills and looking to a future 
with greater hope. If we don't really work at it, in terms of 
how they are getting into college, and how the colleges are 
relating to the job market, in terms of the future and a fast-
growing world, then we're missing the continuum.
    I thank so many of our members. When I talk about the 
future, I'm very aware--Senator Bingaman, present here, and 
working with Lamar Alexander and others on the Competitiveness 
bill that's on the floor right now. I'm enormously grateful, as 
well, to Senators Bingaman, Burr, and Murray for their 
leadership in this area, and for their legislation in this 
area. I thank--as always--my friend, Senator Enzi, who at each 
and every step along the way, has been an invaluable partner as 
we're trying to deal with these issues.
    We have very good help and assistance from the Alliance for 
Excellent Education Foundation, Jobs for the Future, and The 
Center for American Progress. They've all been right on target 
and incredibly useful and helpful.
    I have a more extensive statement, which is enormously 
eloquent.
    [Laughter.]
    I know all of you want to remain and have me read that, but 
I think we know why we're here. We've got some very good people 
that can help guide this committee on these issues and we're 
looking forward to their testimony.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    I welcome our witnesses to this hearing on modernizing 
middle and high schools as we prepare to reauthorize the No 
Child Left Behind Act. The act sets lofty goals for all schools 
to meet, and requires States to establish strong standards, a 
rigorous curriculum, and reliable assessments. It's helped 
schools make significant progress in closing achievement gaps 
and helping students learn.
    One of our principal priorities in the reauthorization is 
to ensure that the act is working for all students at every 
grade level in elementary school, middle school, and high 
school.
    Recent surveys demonstrate that we still have much to do in 
secondary schools. Only 30 percent of 8th grade students scored 
proficient or better in 2005 on math assessment and reading 
assessment. In 12th grade, less than a quarter of students 
scored proficient or better on the math assessment, and only 35 
percent were proficient or better on the reading assessment. 
It's clear that secondary school students need as much 
attention and help in these essential courses as students in 
lower grades do.
    We also need to do more to assist students in the 
transition from middle school to high school and help them 
graduate. About 1,000 high schools across the country only 
graduate half their students. Among African-American and 
Latinos, only 55 percent graduate on time. It's clear that high 
schools need more assistance in supporting and retaining 
students.
    Federal investment at the middle and high school level is 
not sufficient. The main source of Federal funds is through the 
title I program. Yet, only 8 percent of students who benefit 
from these funds are in high school. Ninety percent of high 
schools with very low graduation rates have very low-income 
students. But only a quarter of these schools receive title I 
funds. We need to dedicate more resources and support for 
secondary schools to improve academic achievement and ensure 
that every student has a fair opportunity to graduate.
    States and cities across the country are already taking 
steps to address these challenges, such as offering extra help 
during the school day and extending learning time and other 
school-based interventions.
    To improve Boston's high schools, the district worked with 
private partners to create smaller learning communities, 
improve instruction, and strengthen professional development. 
Boston high school programs now focus on business, technology, 
health professions, arts, public service, engineering, 
sciences, international studies, and social justice. Through 
many of these programs, students can enroll in courses for 
college credit or get hands-on experience in a field that 
interests them.
    We know that proven strategies and interventions will help 
students make progress, stay in school, and succeed. Research 
conducted by one of our panelists, Dr. Robert Balfanz shows 
that we can identify students who are at-risk for not 
completing high school as early as 6th grade. Early 
intervention, quality teachers, small classes, and data driven 
instruction will strengthen schools and keep students engaged.
    We also know that better alignment of standards and 
curricula between middle school and high school can ease the 
transition for many students. High school students also have to 
be prepared to meet the expectations of college and the 
workplace. We need to promote models that allow students to 
pursue college level work as soon as possible, such as dual 
enrollment, early college high schools, International 
Baccalaureate, and Advanced Placement programs, each of which 
can make a difference in students' skill level and future 
opportunities.
    To do all this, we can't remain bound to the schoolhouse 
model of past decades. We need to bring our middle and high 
schools into the 21st century.
    I look forward to hearing from our witnesses today about 
the successful programs they're implementing.
    The Chairman. Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I appreciate your 
holding this hearing today on modernizing our high schools. I 
would agree that your statements are eloquent.
    [Laughter.]
    We lose something, though, when we don't have the delivery.
    [Laughter.]
    You have a unique delivery that really gets the points 
across.
    I also want to thank you for the outstanding and very 
cooperative way in which you've selected witnesses for all the 
No Child Left Behind hearings that we've had. I too, have had a 
chance to look through the testimony and appreciate it being 
available already and know that this is another group of people 
with ideas--ideas that I think can be transferred across the 
Nation and make our high schools a better place, a more 
educational place.
    I'm sure Senator Alexander is sorry that he isn't here this 
morning, but he is involved in the Competitiveness debate over 
on the floor, which deals with a lot of the same topics that 
we'll be covering today.
    Because we do need to find ways to encourage high school 
students to stay in school and prepare for and enter high-
skilled fields, such as math, science, engineering, technology, 
health, and foreign languages. We also have to strengthen the 
programs that encourage and enable citizens of all ages to 
enroll in postsecondary education institutions and obtain or 
improve knowledge and skills. The decisions we make about 
education and workforce development will have a dramatic effect 
on the economy and our society for a long time to come.
    I do find the present situation to be rather discouraging. 
Every day in the United States, 7,000 students drop out of 
school. If the high school students who have dropped out of the 
class of 2006 had graduated instead, the Nation's economy would 
have benefited from an additional $309 billion in income they 
would have earned over their lifetimes. That's an incredible 
statistic. Because we couldn't reach those 7,000 students, it 
will cost us, and them, more than $309 billion in income. We 
both lose.
    We simply can not afford to lose those resources. We have 
to deal with the situation head-on. We can't allow students to 
waste their senior year and graduate unprepared to enter 
postsecondary education and the workforce without the necessary 
skills and knowledge.
    The future outlook is not good. Unless high schools are 
able to graduate their students at higher rates than the 68 to 
70 percent they currently do, more than 12 million students 
will drop out during the course of the next decade. The result 
long-term will be a loss to the Nation of $3 trillion. As you 
can imagine, even more in terms of the quality of life for 
those high school drop-outs.
    In addition, it's important to remember the fact that a 
high school diploma does not guarantee that a student has 
learned the basics. Nearly half of all college students are 
required to take remedial courses after graduating from high 
school before they can take college-level coursework. Each year 
more than one million first-time, full-time, degree-seeking 
students begun their undergraduate careers at 4-year colleges 
and universities with every hope and expectation of earning a 
Bachelor's Degree. Of those students, fewer than 4 in 10 will 
actually meet that goal within 4 years, barely 6 in 10 will 
make it in 6 years. Among minority students, remediation rates 
are even higher and completion rates are even lower.
    To remain competitive in a global economy we can not afford 
to lose people because they do not have the education and 
training they need to be successful. We need a plan. We need to 
ensure opportunities are available to all Americans, because 
our future depends on widely available and extensive knowledge 
and training and a commitment to excellence. Strong 
partnerships and alignment among K-12 schools, institutions of 
higher education, business, and government will help us meet 
the needs.
    In the HELP Committee we're using this opportunity to shape 
policy and strengthen the education and training pipeline 
through the reauthorization of Head Start, No Child Left 
Behind, The Higher Education Act, and the Workforce Investment 
Act. We can make sure that every individual has access to a 
lifetime of education and training opportunities that provide 
the knowledge and skills they need to be successful and that 
our employers need to remain competitive.
    I look forward to the chance to hear the testimony and ask 
some questions.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Senator Kennedy, for holding this hearing today 
on modernizing our high schools. We need to make sure our high 
schools are designed to prepare our students for the 21st 
century.
    We need to find ways to encourage high school students to 
stay in school and prepare for and enter high-skill fields such 
as math, science, engineering, health, technology and critical 
foreign languages. We must also strengthen the programs that 
encourage and enable citizens of all ages to enroll in 
postsecondary education institutions and obtain or improve 
knowledge and skills. The decisions we make about education and 
workforce development will have a dramatic impact on the 
economy and our society for a long time to come.
    The present situation is discouraging. Every day in the 
United States, 7,000 students drop out of school. If the high 
school students who had dropped out of the class of 2006 had 
graduated instead, the Nation's economy would have benefited 
from an additional $309 billion in income they would have 
earned over their lifetimes. It's an incredible statistic. 
Because we couldn't reach those 7,000 students, it will cost us 
and them $309 billion in income we will both lose. We simply 
cannot afford to lose those resources. We must deal with the 
situation head on--we cannot allow students to ``waste'' their 
senior year, and graduate unprepared to enter postsecondary 
education and a workforce focused on skills and knowledge.
    The future outlook is not good. Unless high schools are 
able to graduate their students at higher rates than the 68 to 
70 percent they currently do, more than 12 million students 
will drop out during the course of the next decade. The result 
long term will be a loss to the Nation of $3 trillion, and as 
you can imagine, even more in terms of the quality of life for 
those dropouts.
    In addition, it's important to remember the fact that a 
high school diploma does not guarantee that a student has 
learned the basics. Nearly half of all college students are 
required to take remedial courses, after graduating from high 
school, before they can take college level coursework.
    Each year, more than one million first-time, full-time, 
degree-seeking students begin their undergraduate careers at 4-
year colleges and universities with every hope and expectation 
of earning a bachelor's degree. Of those students, fewer than 4 
in 10 will actually meet that goal within 4 years; barely 6 in 
10 will make it out in 6 years. Among minority students, 
remediation rates are even higher and completion rates are even 
lower.
    To remain competitive in a global economy, we cannot afford 
to lose people because they do not have the education and 
training they need to be successful. We need a plan. We need to 
ensure opportunities are available to all Americans, because 
our future depends on widely available and extensive knowledge 
and training and a commitment to excellence. Strong 
partnerships and alignment among K-12 schools, institutions of 
higher education, business and government will help us meet the 
needs.
    In the HELP Committee, we are using this opportunity to 
shape policy and strengthen the education and training 
pipeline. Through the reauthorization of Head Start, No Child 
Left Behind, the Higher Education Act and the Workforce 
Investment Act we can make sure that every individual has 
access to a lifetime of education and training opportunities 
that provide the knowledge and skills they need to be 
successful and that our employers need to remain competitive.
    I look forward to hearing the testimony of our witnesses 
and to working with members of the HELP Committee in developing 
a sound policy to address these critical issues.
    The Chairman. Thank you.
    We are joined by Senator Murkowski, and we're delighted to 
see you. Senator Bingaman has been a particular leader on the 
issue of dropouts. I was interested in those statistics that 
show that 15 percent of the schools have 50 percent of the 
dropouts. It suggests to me that this is, possibly, a 
manageable problem. When I look at a number of the urban areas, 
I see the enhanced poverty and enhanced dropout. It's a big 
challenge, but there's some very encouraging signs.
    We'll start with introducing the individuals just as they 
speak, rather than everyone. Welcome Dr. Balfanz, who's the 
Associate Director, Talent Development Middle School Project. 
Dr. Balfanz is a research scientist at the Center for Social 
Organization Schools at Johns Hopkins, and Co-Director of the 
Talent Development Middle and High School Project. Talent 
Development works with 100 high-poverty secondary schools to 
strengthen curriculum, improve professional development, and 
provide extra help to students in developing strategies for 
success.
    He'll discuss some of the findings from the research, as 
well as his work at Talent Development and talk to us about 
identifying students at risk of dropping out and how strong 
schoolwide programs, high-quality teachers, and early 
intervention strategies can help keep the middle school and 
high school students on track to complete their work.
    Please.

    STATEMENT OF ROBERT BALFANZ, ASSOCIATE DIRECTOR, TALENT 
        DEVELOPMENT MIDDLE SCHOOL PROJECT, BALTIMORE, MD

    Mr. Balfanz. Thank you, Mr. Chairman, members of the 
committee. Thank you for inviting me here today to speak about 
the Nation's graduation rate crisis and to talk about what we 
can do about it.
    We are at a moment of time when a well conceived action at 
the Federal level can have a catalytic affect in ending the 
Nation's dropout crisis and, in so doing, fundamentally change 
the Nation for better. Pick any issue that's important besides, 
in addition to high-quality public schooling, economic 
competitiveness, reducing crime, reducing social welfare costs, 
improving urban and rural development, and I would even gamble 
to say, deficit reduction, and I can make the case that 
creating a system of secondary schools where everyone graduates 
prepared for career, college, and civic life is your issue.
    More importantly, I'm here to say today that we can really 
do something about it. The time is now. We know the high 
schools kids dropout from, we know why they dropout, and we 
know what will make it fundamentally better, so we can really 
do something about this here and now. Central to this will be 
creating a Federal, State, and local partnership that provides 
these schools with the accountability frameworks, resources, 
technical assistance, and capacity building so we can do this 
soon.
    Let me explain. I come at this issue from three angles. 
First as a researcher, who has looked at the causes of 
dropouts, its location, and its cures. Second, as a developer 
of a comprehensive whole school reform model, the Talent 
Development Program, which over the past decade, has allowed me 
to work with 30 districts--urban and rural--and over 100 high-
poverty middle and high schools. And finally, as an operator of 
a innovation high school in Baltimore City that's a partnership 
between Johns Hopkins and the Baltimore City Public School 
System. It's a public school, it's in one of the highest 
poverty neighborhoods in America and West Baltimore. It takes 
all comers and it gives you really--nothing shows you how to do 
it than having to do it yourself.
    Putting all those three perspectives together, what do we 
know? We know that about 15 percent of the Nation's high 
schools, about 2,000, produce half its dropouts. These are high 
schools where, year after year, only 6 out of every 10 students 
who enter, graduate. And often, it's only 3 out of 10 or 4 out 
of 10 or 5 out of 10. This happens year in and year out, 
despite often a decade of State and then National 
accountability efforts. These high schools are, unfortunately, 
the Nation's dropout factories.
    Second of all, we know these schools are primarily attended 
by low-income and/or minority students. This is a National 
tragedy, but 2,000 high schools, as Senator Kennedy suggested, 
is a solvable number.
    Second of all, we know these schools are located wherever 
we find concentrated poverty so, about half are in the Nation's 
Northern, Midwestern, and Western cities. The other half are 
across the South and Southwest in every State. These schools 
are man-made, they are not inevitable. They happen because what 
we've done, largely unintentionally, is concentrate, 
overwhelmingly concentrate needy students in a small subset of 
under-resourced schools.
    What do I mean by this, overwhelmingly concentrated? In a 
high school with a high dropout rate, where only 50 percent, 40 
percent, 30 percent of the students graduate, you will 
typically look in the ninth grade and find 400 students. Of 
those 400 students, 8 in 10, 8 out of 10 are repeating the 
grade, are overage for grade, are in Special Ed, are two or 
more years behind grade level, or enter high school having 
missed a month or more of school during middle school, meaning 
they're already starting to dis-attach from schooling.
    Normally schools might have 5, 10, 15 percent of high needs 
kids and they can mobilize around them. When it's 80 percent 
and it's over hundreds in number, you're just overwhelmed. And 
second of all, instead of over-resourcing these grades in 
schools, they often get the lowest level of resources. That's 
the least desirable teaching assignment, so they get the 
youngest teachers and have the highest teacher turnover rates 
and the highest level of vacancies.
    What do I mean by under-resourced? They don't have enough 
skilled adults in the building that are committed to getting 
the job done. They don't have enough time and stability and 
leadership. The Principal changes every year, the 
Superintendent every 2 years. They don't have access to high-
quality technical assistance.
    We also know that 8 out of 10, maybe 9 out of 10 of these 
students of schools, it's highly predictable who's going to 
drop out. These kids actually wave their hands up and start 
signaling, ``Help!'' as early as the sixth grade when they fail 
math, when they fail English, when they get in behavioral 
trouble. Or, as a sixth grader, a 12-year-old, miss a month or 
more of schooling.
    The system is not set up to recognize this. The system is 
set up to say, ``It's early adolescence, it's a new school, we 
hope you grow out of it.'' But what we know, is they don't grow 
out of it. In fact, it just gets worse. In sixth grade, you 
might just have one of these things. By ninth grade, you're not 
coming, you're failing everything, and you're in behavioral 
trouble. We really need to have a systematic approach of both 
the high schools and the middle grade schools that feed them.
    Finally, we know that students in these schools desperately 
want to succeed. If you ever want to affirm your faith in the 
human spirit, come visit our innovation high school in 
Baltimore and talk to the students. What these students 
overcome just to get to school is amazing.
    So it's not the case, we have to get rid of this image in 
our heads of the dropout of this disaffected youth who's 
alienated, who doesn't care, or maybe has got pregnant, or has 
to work. That's a small percentage of the dropouts. We're 
always going to have those kids, but that's 10 percent. It's 
not the case when you go to 50, 40, 60 percent dropping out 
that that's the majority. The majority of kids that are failing 
in school and kids that are being failed by the schools not 
giving them the supports they need.
    The big picture is, we know today what's going to happen 
tomorrow. I can point to you to the schools by district, by 
State, that produce most of the dropouts in those States. 
Within those schools we can point to the kids in need of, who 
need help and support to graduate. That really tells us we're 
in a position to have action.
    Furthermore and finally, before my time runs out, and we 
can answer this in the questions, we know a lot about what to 
do. Over the past decade we've learned that comprehensive 
reform when well implemented makes a difference. By this, I 
mean organization changes that let teachers work with just a 
small subset of students over time so they're not overwhelmed, 
4 teachers, 75 kids, in my view, is the equivalent of the 
platoon in the Army. It's the fundamental unit of organization. 
Four adults can help 75 kids, but oftentimes a single teacher 
is responsible for 150 kids. And so, it doesn't work.
    We have to have strong instructional programs, high 
standards, high challenges, that relentlessly provide the extra 
help you need to succeed, which is just multiple and multiple 
layers. Because you're taking kids that are at the sixth-grade 
level in math and saying, ``You're going to pass algebra.'' 
They have the ability to do that, but they need intensive 
support for that to happen.
    Finally, teachers need supports because we're asking them 
to do much more than teach a good lesson. We're asking them to 
actually make phone calls to kids. In our school, if you're not 
there in the first 30 minutes you get a phone call so I know 
where you are, we help you out. What's the story? But teachers 
have to have time to do that.
    What's the Federal role? At a global level I thinks it's to 
be the grease and glue, to create the system that--the Federal, 
State, local system that provides the resources, the 
accountability systems, the capacity building, the technical 
assistance. It's also specifically to help provide additional 
targeted resources--this is the other part of the story--we can 
really target these resources to where they're most needed and 
will do the most good. In exchange for accountability, that the 
schools will implement the evidence-based reforms we know work.
    In very specific terms, it's supporting and fully funding 
the Graduation Promise Act, introduced yesterday. It's getting 
graduation rates right in the reauthorization of No Child Left 
Behind, making them count as much as test scores, measured 
accurately and measured for everybody.
    Finally, it's investing in research and innovation. We know 
right now how to make these schools tremendously better, but to 
get to the promised land of every kid, no matter where you 
start, graduating prepared for college, career, and civic life, 
we will have to learn more. We will have to figure out for 
extra times, is it better to extend the school day, the school 
year, the school week, for how many, for which kids and what to 
do with that time. We'll also have to think of more innovative 
ways to help the most neediest kids who need recovery, who are 
overage and under-credited. How do we take a 17-year-old with 
three credits and create a program where they succeed?
    I believe it's in our power to do this and I ask you to 
work together with us so we can do this within the next decade.
    Thank you.
    [The prepared statement of Mr. Balfanz follows:]
                  Prepared Statement of Robert Balfanz
    We are at a moment when well-conceived action by the Federal 
Government can play a catalytic role in ending the Nation's dropout 
crisis and in so doing change the Nation fundamentally for the better. 
Pick the issue you care most deeply about--the Nation's 
competitiveness, equal opportunity, lowering the crime rate, reducing 
social welfare costs, urban or rural development, social justice, 
economic growth, or unleashing the full potential of all the Nation's 
citizens and the case can be made that creating a system of public 
secondary schools which graduate all students prepared for success in 
college, career, and civic life is your issue. This is within our 
grasp, we know how to do this and we know what needs to be done to make 
it happen. Central to this is a focused Federal effort to create a 
Federal-State-local partnership which provides the accountability 
framework, capacity building, technical assistance, research, 
evaluation, and resources necessary to transform the Nation's low-
performing secondary schools.
    Let me explain. I come at this issue from three perspectives. First 
from what I have learned as a researcher who has studied the causes, 
consequences, and location of the dropout problem at the national 
level, as well as the reforms, policies, and resources needed to end 
it. Second from validating this learning through practice as a whole 
school reform model developer who has worked with over 30 diverse urban 
and rural school districts and over 100 high-poverty middle and high 
schools across the Nation to implement the Talent Development Middle 
and High School's comprehensive organizational, instructional and 
teacher/administrator development/support reforms. Finally, my 
perspective is informed by first hand experience operating a 
nonselective, public Innovation High School in West Baltimore which 
serves a high-poverty student population. The Baltimore Talent 
Development High School is run via a partnership between Johns Hopkins 
University and the Baltimore City Public School System and has given me 
the insight which comes from having to help design an instructional 
program, implement a multi-tiered system of student supports, select 
and train a teaching staff, get facilities in working order, and do 
what it takes to prepare students no matter what their entering skill 
level and motivation for adult success in college, career, and life. 
From the sum of these experiences here is what I have learned.
                              what we know
    For the past decade I and my colleagues at the Center for Social 
Organization of Schools at Johns Hopkins and the Philadelphia Education 
Fund, have studied the dropout/graduation rate crisis at the school 
level. We have learned that about 15 percent of the Nation's high 
schools produce close to half its dropouts. These 2,000 high schools 
are the Nation's dropout factories. They have weak promoting power--the 
number of seniors is routinely 60 percent or fewer than the number of 
freshmen 4 years earlier--and year after year, often for a decade or 
longer, about as many students drop out as graduate. In the worst 
cases, 400 freshmen often produce 150 or fewer graduates.
    About half these schools are in northern, midwestern and western 
cities; the other half are primarily found throughout the south and 
southwest. Whether the national graduation rate has gotten better, 
worse, or remained static over the last decade is unclear to us. What 
we do know is that the number of high schools with weak promoting power 
has nearly doubled in the last decade.
    We also have learned that poverty is the fundamental driver of low 
graduation rates. There is a near perfect linear relationship between a 
high school's level of concentrated poverty and its tendency to lose 
large numbers of students between ninth and twelfth grades. In the 
States we have looked at in more depth, minorities are promoted to 12th 
grade at the same or greater rates as white youth when they attend 
middle class or affluent high schools in which few students live in 
poverty.
    Relatively few minorities attend these high schools, however. 
Between a third and two-fifths of the Nation's African-American and 
Latino students attend high schools with high poverty and low 
graduation rates. This is social dynamite because in modern America a 
good education is the only reliable path out of poverty. The fact that 
most of these high-poverty, high-minority high schools, do not receive 
title 1 funding, the Federal program designed to help offset the impact 
of poverty, is deeply problematic.
    We also have been able to follow multiple cohorts of students 
through two major northeastern school districts. Our data show that the 
majority of dropouts in these cities leave high school with few credits 
because they failed the majority of their classes. This is not to 
ignore important sub-groups of dropouts who demonstrate some high 
school skills, persevere to 11th or 12th grade and leave school just 
shy of graduation in response to a life event, boredom, or frustration.
    We have found, however, that graduation rates in the 50-60 percent 
range typical in many cities are driven by students who enter high 
school poorly prepared for success and rarely or barely make it out of 
the ninth grade. They disengage from school, attend infrequently, fail 
too many courses to be promoted to the 10th grade, try again with no 
better results, and ultimately drop out of school. Our data show 30-40 
percent of students in these cities repeat the ninth grade but that 
only 10-15 percent of repeaters go on to graduate.
    Our direct experience working to improve more than 70 high-poverty, 
nonselective high schools through our Talent Development High Schools 
program further tells us that the Nation's dropout factories are not 
primarily the result of students, teachers and administrators who do 
not care or try. Many care and try a lot, but they are often over-
matched by the immense educational challenges they face. There are too 
many under-resourced and increasingly economically and racially 
segregated high schools that lack the tools and techniques needed to 
meet the challenges they face. In these high schools it is not uncommon 
for less than 20 percent of freshmen to be on-age, first-time ninth 
graders, with math and reading skills at the seventh-grade level or 
higher; in short, the type of students high schools have traditionally 
been designed to educate. Up to 80 percent of the ninth-graders can be 
over-age for grade, repeating the grade, require special education 
services, or have math and reading skills below a seventh-grade level. 
Yet increasingly, we are asking these students to pass Algebra courses 
and even exams before they can be promoted to 10th grade.
    These students have the ability to do this, but they need much more 
intensive and effective instruction and adult support than our high-
poverty, comprehensive high schools, with current levels of resources, 
typically provided. Schools which beat these odds and have high 
percentages of students who succeed in challenging courses provide 
multiple layers of support. Strong instructional programs are matched 
with a schedule that allowed for double-dosing in these subjects, and 
extra help from caring teachers within a personalized interdisciplinary 
team structure. But this is still not enough for all students to 
succeed, some require summer school and a few need further focused 
instruction in the fall to earn promotion to the next grade. Pulling 
off this level of intensive support requires not only committed adults 
who refuse to give up on their students, but additional time, 
resources, training, and materials as well.
    Finally, our most recent study reveals that many students begin to 
fall off the graduation track at the start of adolescence. We have been 
able to identify over half of four major school district's future 
dropouts as early as the sixth grade by looking at just four variables 
commonly measured in schools--attendance, behavior, and course failure 
in math and English. Across these districts high-poverty middle grade 
students with any one of the following risk factors--attending school 
less than 85-90 percent of the time, being identified as having 
behavioral problems, or failing math or English typically had less than 
a 20 percent chance of graduating within 5 years of entering ninth 
grade.
    Hence, one reason that the ninth grade finishes off so many 
students is that many of them have already been struggling and 
disengaging for 3 years or more before entering high school. Along with 
the recent on-track measures for ninth-graders developed by the Chicago 
Consortium for School Research, this tells us that there are powerful 
and accessible indicators that schools can use to identify the 
overwhelming majority of students who will drop out in time to prevent 
it, as well as indicating the areas in which these students need 
supports.
    Thus, States and districts can use currently available indicators 
to identify both the high schools that produce the majority of dropouts 
and the students most likely to drop out. This means resources and 
supports can be targeted to the schools and students where they will do 
the most good and are needed the most.
                        what we can and must do
    Our research also points to concrete steps we can take right now to 
address the graduation crisis head on. At least three types of 
intervention are required.
    First, the Nation's Dropout Factories need to be fixed or replaced. 
This cause should unite everyone, the urban North, and the rural South, 
Civil Rights advocates and policymakers concerned about 
competitiveness. Transforming these schools and systems is the best 
shot we have at ending the stubborn grip of concentrated and inter-
generational poverty that engulfs too many of our citizens and their 
communities.
    We have the knowledge to do this, but it will not be easy, fast, or 
cheap. A central feature of dropout factories is that they serve an 
overwhelming concentration of needy students. Thus, it is essential 
that Federal Government, States, districts and foundations bring to 
bear human and financial resources that are equal to the challenge. We 
have recently shown that high schools vary considerably in resources. 
Some struggling high schools can implement proven reforms by re-
allocating existing resources, many need modest additional support, and 
a quarter or more need a substantial increase in resources. Moreover, 
because reforming or replacing these schools is the educational 
equivalent of open heart surgery, States and districts need to develop 
sufficient technical capacity to do the job and/or support third-party 
intermediaries who can.
    Second, investments in more research, development, and invention 
are needed, particularly in curriculum, instruction, and assessment 
High school coursework needs to develop student's intellect and reflect 
tighter and more substantial connections to higher education and the 
workplace. It should incorporate significant experiential activities 
that engage our emerging adults in meaningful activities that build 
their skills and connections to supportive social networks. It must be 
adaptable enough to address diverse needs, including the increasing 
number of adolescents who are English language learners. Assessments 
need to support and encourage meaningful intellectual development and 
not limit learning to what is easily testable.
    Finally, we must acknowledge the impact of poverty and activate 
``outside the box'' approaches for our most vulnerable students. That 
means investments in improving and integrating social service and 
community supports in schools that serve high-poverty neighborhoods and 
regions. It means providing intensive supports to help students from 
poverty negotiate the treacherous transitions between educational 
levels. It means embracing a K-16 framework, but also acknowledging 
that adolescence (especially combined with poverty) brings its own risk 
factors and that a secondary approach spanning middle and high schools 
is needed to keep all students on track toward graduation.
    We need to transform the high schools that produce most of the 
dropouts and the middle grades schools that feed them. With a targeted, 
inventive, aligned, and integrated approach, we can do this.
        the cost of inaction/the reward of well-conceived action
    We must do this. The social, economic, and individual costs of 
inaction are high. There is essentially no viable work, work that a 
successful life can be built around for young adults without a high 
school diploma. When large numbers of young adults and adolescents from 
a neighborhood are out of school and out of work the social structure 
becomes frayed and the under-class becomes self-perpetuating. In our 
research in Philadelphia we have shown that students who are in foster 
care, who are abused and neglected, who have a child, or are 
incarcerated almost never graduate from high school. This creates 
thousands of dislocated youth within a single city which often leads to 
tragic results. This year one of the students at our Innovation High 
School, a student who had dropped out in the sixth grade, whose parents 
were both in jail, who was a recovering alcoholic and who was on his 
way to a bright future, having remarked to a visiting reporter that the 
best thing about our school was positive peer pressure, was tragically 
shot to death in random street crime perpetuated by other young adults 
who more than likely had themselves already dropped out of school.
    Conversely, the social, economic, and individual returns to ending 
the dropout crisis and transforming the Nation's low-performing schools 
are almost staggeringly high. Recent research by economists at Columbia 
and Princeton has shown that cutting the dropout rate in half through 
proven programs and effective efforts would, even after calculating the 
costs of those efforts, produce $40 billion a year in economic returns 
via increased tax revenue and decreased social welfare costs. Once we 
can say to any student entering high school--rather they are from 
Akron, Baltimore, Worchester, Chicago, New York, Albuquerque, Los 
Angeles or North Carolina, Georgia, Arizona, or Florida--that if you 
come to school every day and work hard you will graduate prepared for 
success in college, career and civic life, we will have changed 
American society profoundly for the better and made true to its promise 
of equal opportunity for all. The students regardless of their 
circumstances will respond. If you do not believe me, come to Baltimore 
and I will introduce you to another one of our students--a self 
described bad boy gone good, he raises himself, while an aunt raises 
his child, and he has become a consistent honor roll student who pats 
himself on the back every time he makes it because there is no one else 
at home to do it. On his way to a successful career in advertising, he 
tells anyone who asks that the streets outside are mean but his school 
is heaven.
    We can do this, make high school a transformative place for all the 
Nation's students and in particular those who live in poverty. We know 
which schools need to be fixed or replaced, we know which students 
within them need multiple layers of continuous academic and social 
support, we have learned enough about how high schools can be 
successfully turned around or started anew to make them fundamentally 
more successful, and we know what else we have to learn. Its time to 
get to work.
                            the federal role
    What is the Federal role? The Federal Government in partnership 
with States and local school districts needs to lead the effort to 
transform the Nation's low-
performing secondary schools. As my friend at the Philadelphia 
Education Fund likes to say it needs to be the grease and glue that 
gets the job done. It needs to insure that the accountability 
framework, capacity building, technical assistance, research, 
evaluation, and resources necessary to transform the Nation's low-
performing secondary schools are put in place and sustained for the 
decade it will take. It needs to insure that these efforts are strong 
enough and directed enough to overcome the obstacles that will stand in 
the way--lack of will, uneven know how at school, district, and State 
level, limited or misallocated resources, leadership churn, and policy 
misalignment.
    One large step in this direction is the Graduation Promise Act 
recently introduced by Senator Bingaman. This bill provides a means to 
target what we know works, to the high schools that need it the most, 
and to insure that in exchange for receiving the resources and support 
(human and financial) necessary to introduce state-of-the-art reforms, 
schools and school districts are held accountable for implementing them 
well and sustaining them over time.
    Congress also needs to help the Nation get the measurement of 
graduation rates, right. In the re-authorization of No Child Left 
Behind, graduation rates must be measured accurately, disaggregated for 
all groups, and count as much as test scores in accountability systems. 
In addition when it is re-authorized NCLB at the secondary level needs 
to be structure so that low-performing middle and high schools have the 
incentive to engage in the comprehensive, whole school reforms they 
need and are held accountable for implementing and sustaining effective 
reforms. This will require a set of intermediate on-track indicators, 
since it can take 3 to 5 years for effective whole school reform to 
show its full impact. Currently too many of the implicit and explicit 
incentives in NCLB push schools to focus on a few students rather than 
reforming the entire school.
    In addition, there needs to be support for continued invention and 
discovery. All of my learning and experiences tell me that central to 
reducing poverty in America will be the creation of grades 6 to 14 
combined middle, high, and community college full service (supplying 
integrated services) open at 8 a.m. close at 8 p.m. schools in the 
Nation's most impoverished neighborhoods. So students can enter in at 
the cusp of adolescence when they are most at risk of becoming 
disengaged from schooling and falling off the path to graduation and 
leave fully ready for successful, meaningful, and economically 
important employment. The Graduation Promise Act sows the seeds for 
this in title II by setting aside funds for the development of more 
effective models of secondary school for struggling students who are 
over age and under credited but a parallel effort in curriculum and 
instruction will also be needed so we can create secondary schools 
which fully engage, educate, and develop the Nation's adolescents.
    Last, and I could no longer call myself a researcher if I did not 
include this, we need increased investment in knowledge building. The 
Federal Government needs to support a program of research designed to 
establish which educational inputs, implemented in what manner, in 
which types of schools have the greatest impact. The Graduation Promise 
Act begins this but over time even more support will be needed. For 
example, we need to know, is it better to increase the school day, the 
school week, or the school year and if so, how best to use this time, 
or in fact is increased time not worth the cost and hence lost 
opportunities to bring to scale more effective reforms. This can only 
be answered through large-scale randomized studies that will cost tens 
of millions of dollars to run. Currently there is funding only for 
small scale randomized studies that cost millions of dollars to run. So 
we need to increase our Nations' funding for educational research and 
development by an order of magnitude. But as any scientist will tell 
you, change something by an order of magnitude and you change the 
world. We are at such a moment, and with a well-conceived federally led 
plan of action for transforming the Nation's low-performing 
secondary schools, that we can do that.

    The Chairman. Thank you for excellent testimony. You know, 
what I think is fascinating is, that it is North, South, East, 
and West. Around here you can try and get a coalition together 
to do something. That's not the most important thing we're 
going to hear today, but something that's perked up my 
attention.
    Governor Wise, good to see you. Governor Wise became 
President of the Alliance for Excellent Education in 2005, was 
the Governor of West Virginia from 2001 to 2005, where he 
implemented the PROMISE Scholarship Program, established 
character education curriculum, and helped increase the number 
of National Board-certified teachers in the State by offering 
financial bonuses. He'll discuss the need for stronger 
accountability systems at middle and high schools, including 
the importance of tracking and reporting graduation rates in 
reliable manner.
    Governor Wise recommends more effective use of data, 
building the capacity to make school improvements possible, 
improving methods of measuring student progress, and anything 
else he wants to comment on.
    Thank you.

   STATEMENT OF BOB WISE, PRESIDENT, ALLIANCE FOR EXCELLENT 
                   EDUCATION, WASHINGTON, DC.

    Mr. Wise. Thank you very much, Mr. Chairman, and members of 
the committee for your interest.
    You all outlined so graphically, the problem with dropouts, 
the glaring statistics, when many of you will be attending 
commencement ceremonies and we watch those students next month, 
high school seniors walk happily across the stage. We also have 
to remember the over one million who are not walking across the 
stage that started ninth grade. For those one million, it will 
be just another day of either being unemployed or working a 
minimum wage job.
    In all the numbers, Senator Enzi, that you will, that you 
said so eloquently bear out. There are two groups affected when 
somebody drops out. First it's the student themselves and all 
that befalls them, lost opportunities. The second group are the 
rest of us.
    Let me move quickly to No Child Left Behind and how it can 
help high schools. First of all, we have to remember that there 
is a crisis. We know what to do about it. Bob Balfanz and his 
colleagues have illustrated and demonstrated well, both the 
research--through the research of the problem and the 
solutions. We know what to do about it, we have to have the 
will.
    Why are we in this shape we're in? Well, first of all let 
me address what we call the missing middle. The missing middle 
is the Federal funding for our educational system. If this is 
an air graph, from here to here is $18 billion, which is what 
the Federal Government--Federal Government only--spends for 
pre-K to grade six, basically, Title I, Head Start, and Reading 
First. Let me move over here to higher education, 
postsecondary, this is about $16 billion, essentially Pell 
Grants and campus-based financial aid with--this does not 
include guaranteed student loans--that would go to the ceiling, 
so that's 18 and 16.
    So what do we spend for middle and high schools? About two 
point five for middle schools, and about two point five for 
high schools, for a total of $5 billion. We can show you direct 
return on investment. We're making gains here in scores and 
reading scores and math scores in the fourth grade. Our higher 
education system still is one of the envies of the world. Here 
is where we're seeing the problem in the dropout rate that's 
not declining, and indeed a third of our kids that are 
finishing high school, but not with the skills they need for 
success in the workplace.
    Second problem is, NCLB does not have true accountability 
at the high school level. The law looks at test scores, but not 
if students actually graduate. And so, the irony is, we run our 
kids a mile race, assessing them rigorously as we should, at 
every tenth of a mile, they cross the finish line and we don't 
really count it. And so, we don't, at the finish line we're not 
keeping track, we're not disaggregating data, we're not holding 
States to it.
    Beyond accountability, the school improvement requirements 
under NCLB, such as School Choice and Supplemental Educational 
Services don't really apply. One reason is that 75 percent of 
school districts have only one high school, so choice is really 
not an issue in that situation.
    But finally, the main reason, is what is the main carrot 
and stick of NCLB? It's title I dollars, and yet only 8 percent 
of students receiving title I services are in our high schools. 
What that means then, is that whether or not a school makes AYP 
doesn't really matter because if title I dollars don't go 
there--and most of the schools don't get title I dollars, high 
schools--then the services, supports, and sanctions won't 
apply.
    Now, we know that there're very successful models that can 
be implemented to deal with this. Talent Development, which Bob 
Balfanz and his colleagues head up, Jobs for American 
Graduates, The Institute for Student Achievement, First Things 
First, I can rattle off a number of them. There are a number of 
individual high schools and school districts, as well, that 
have been successful.
    What can we do? Well, first to turn around low-performing 
high schools, NCLB must include a new system of meaningful high 
school about accountability tied to school improvement, that 
also requires constant disaggregated graduation rates that 
count as much as test scores in determining AYP.
    Second, in the improved measure of AYP, should determine 
whether or not schools qualify for a new high school 
improvement fund using proven strategies to turn around low-
performing schools, the dropout factories that Bob referred to. 
This new system is outlined in the Graduation Promise Act, 
introduced yesterday by Senators Bingaman, Burr, and Kennedy. 
We thank all of you very much for your commitment to this.
    The GPA authorizes a $2.4-billion high school improvement 
and dropout reduction fund to turn around America's slowest 
performing high schools. Remember that air graph, we'll still 
only be up at that point to $7.5 billion for our six secondary 
school grades.
    In this approach, States would set up Statewide systems to 
use multiple measures to appropriately access high school 
quality. States would then use this information to place high 
schools in need of improvement into one of three types of 
differentiated school improvement categories based on--not on 
how long the school has been failing--but how badly the school 
is performing. These high school strategies would come from the 
local level and not be designed by the Federal Government.
    Additionally, I want to thank Senator Burr for introducing 
The Graduate for Better Future Act, which also supports the 
goals of the GPA.
    We also need to look quickly at some other reforms that are 
significant. Seventy percent of our eighth graders are not 
reading at grade level. Now, they're entering high school with 
the toughest courses. That is why Striving Readers 
Authorization--which would target money to the lowest 
performing high schools to develop these literacy skills that 
are so important. Senator Sessions and Murray have introduced 
this in the Striving Readers Act of Senate bill 958, and we 
also thank the co-sponsorship, the members of this committee, 
Senators Dodd, Burr, Bingaman, Isakson, Harkin, Murkowski, and 
Senator Brown.
    Rather than having States differ greatly in defining 
proficiency, NCLB should also establish a process for 
developing voluntary shared education standards, to ensure that 
all students are held to the same high expectations aligned 
with the requirements of postsecondary education in the 
workforce. The need for these shared standards has also been 
recognized by various members of this committee in legislation, 
various pieces of legislation introduced by Senators Kennedy, 
Clinton, and Dodd.
    From the classroom, as well, high quality data is necessary 
to make important education decisions to turn around low-
performing high schools. Still, too rare are quality 
longitudinal data systems, using individual student identifiers 
critical to proving student achievement. From the classroom to 
this committee room, we need good data to improve educational 
outcomes. The Federal Government assisting States to develop 
those, must be the main vehicle.
    We would urge a major investment in grants to States to 
build quality data systems in accordance with the 
recommendations of the Data Quality Commission--or Campaign.
    Again, I want to thank the chairman and the committee for 
the leadership on this critical issue. If, as several of you 
have talked about, it's not just a matter of the dropouts, it's 
also a matter of our economy. The $2.5 billion that we asked 
for in the GPA, Graduation Promise Act, I can demonstrate 
chapter and verse economically, a return on investment to the 
individual, yes to our society overall. Thank you.
    [The prepared statement of Mr. Wise follows:]
                     Prepared Statement of Bob Wise
    Mr. Chairman, thank you for the invitation to speak with you today. 
I appreciate your commitment to education, as well as that of the other 
distinguished members of the committee.
    In the coming month, millions of high school seniors will walk 
across the stage at graduation ceremonies to receive their high school 
diplomas. Auditoriums and gymnasiums around the country will be packed 
to the brim with proud parents and relatives. For many students, 
Graduation Day will be the culmination of 13 years of study; for 
others, it will be the doorway to postsecondary education. But for 
nearly 1.2 million students who started high school with these 
graduating students, it will likely be just another day that they are 
unemployed or working at a minimum wage job because they have already 
dropped out of school.
                       crisis and economic impact
    Forty years ago, the United States was No. 1 in the world in high 
school graduation rates; it now ranks seventeenth. The Nation's 15-
year-olds, when measured against their counterparts in other 
industrialized nations, rank fifteenth in reading, twenty-third in 
math, and thirtieth in problem-solving skills.
    This does not bode well for the future economic well-being of the 
Nation, nor for the continued prosperity of its people. An increasingly 
global, technologically based economy is demanding ever higher levels 
of knowledge and skills from its workers. The U.S. Department of Labor 
estimates that almost 90 percent of the fastest growing U.S. jobs 
require at least some postsecondary education.
    In a world in which a meaningful high school diploma has become the 
minimum qualification necessary to obtain a good job and support a 
family well-being, far too many American students are being allowed to 
fall off the path to prosperity. This problem has escalated to crisis 
proportions in thousands of the Nation's high schools and is hampering 
the opportunities of millions of students.
    Every school day, 7,000 students drop out--that's 7,000 students 
who could have become teachers or researchers, small business owners, 
or Senators. Of the students who enter ninth grade each fall, a third 
will not graduate from high school within 4 years. Another third will 
graduate, but without the skills and knowledge needed to succeed in 
college or the 21st century workplace. And only a third will graduate 4 
years later with these necessary skills.
    The numbers are even worse for minority communities in our country. 
Only about 55 percent of black students and 52 percent of Hispanic 
students graduate on time from high school with a regular diploma, 
compared to 78 percent of white students. Only 16 percent of Latino 
students and 23 percent of African-American students graduate prepared 
for college, compared to 40 percent of white students. And the news 
could get worse. Based on projections from the U.S. Census Bureau, the 
white population is expected to grow by only 1 percent by 2020, while 
the Hispanic population will increase by 77 percent and the African-
American population by 32 percent. If the Nation cannot do a better job 
of serving minority students and ensuring that they graduate from high 
school, the Nation's overall graduation rate will fall even further as 
a growing number of minority students are left behind.
    The cost of a poor education is not just to the individual. 
Analysis by my organization, the Alliance for Excellent Education, with 
assistance from the Met Life Foundation, reveals that if the 1.2 
million high school dropouts from the Class of 2006 had earned their 
diplomas instead of dropping out, the U.S. economy would have seen an 
additional $309 billion in wages over these students' lifetimes. And 
that's only for 1 year--we can expect the country to lose another $309 
billion in potential earnings later this year as dropouts from the 
Class of 2007 fail to graduate with their classmates. If this annual 
pattern is allowed to continue, more than 12 million students will drop 
out of school during the next decade at a cost to the Nation of $3 
trillion.
    Recent research conducted by a group of the Nation's leading 
researchers in education and economics has shed some light on exactly 
how much a high school dropout costs the Nation in lost taxes, 
increased health care costs, higher spending on crime, and greater 
expenditure on support programs such as welfare. According to a recent 
report, published by Teachers College at Columbia University, male high 
school graduates earn up to $322,000 more over the course of their 
lifetimes than dropouts, while college graduates earn up to $1.3 
million more.
    On the flip side, the Alliance projects that if the U.S. education 
system could raise minority high school graduation rates to the current 
level of whites, and if those new graduates go on to postsecondary 
education at similar rates, additional personal income would increase 
by more than $310.4 billion by 2020, yielding additional tax revenues 
and a considerably improved economic picture.
    While some high school dropouts might eventually find good jobs and 
earn decent livings, most will spend their lives in a State of 
uncertainty--periodically unemployed or on government assistance. Many 
will cycle in and out of prison. In fact, about 75 percent of America's 
State prison inmates, almost 59 percent of Federal inmates, and 69 
percent of jail inmates did not complete high school. If we could 
increase the male graduation rate by only 5 percent, we could save $7.7 
billion a year through reducing crime-related costs and increasing 
earnings.
    High school graduates have better health and lower rates of 
mortality than high school dropouts. Individuals with higher 
educational attainment also are less likely to use public health 
services such as Medicaid. An Alliance analysis found that if every 
student in the class of 2005-2006 graduated from high school, the 
Nation could save $17.1 billion in lifetime health costs.
                 federal role and nclb reauthorization
    The good news is that, although there is a significant crisis, we 
know much about how to respond. The reauthorization of the No Child 
Left Behind Act (NCLB) offers an opportunity for you as the education 
leaders in the Senate to put the ``Secondary'' into the Elementary and 
Secondary Education Act and take some critical steps toward improving 
our Nation's middle and high schools. The realities of global 
competitiveness, the rapidly-diminishing prospects of those students 
whose high schools fail to prepare them for college and work, and the 
resulting widening opportunity gap all make middle and high school 
reform an imperative issue from an economic, national security and 
civil rights perspective.
    The time is right for the Federal Government to take bold 
leadership in advancing secondary school reform--leadership that is 
appropriate to the crisis and in line with the Federal Government's 
tradition of intervening to assure the security of the Nation, reduce 
poverty, increase equity, and advance research to inform effective 
practice. The increasing urgency to address the trouble plaguing 
secondary schools has been bolstered by an avalanche of reports 
recognizing the link between improving secondary education and 
increasing and maintaining competitiveness. Such reports include ETS's 
The Perfect Storm and National Council on Economic Education's Tough 
Choices-Tough Times.
    For education reform to truly take hold and be successful, it must 
happen at all levels of education, from the schoolhouse to Capitol 
Hill. As a Nation, we will never reach the goals of No Child Left 
Behind or make every child a graduate without significantly increasing 
funding to improve America's high schools--making levels of investment 
equal to the levels of reform. But I am not interested in making the 
current dysfunctional system just more expensive. Reforms must be 
targeted and research based and investment should match that reform.
    Currently, there is little Federal investment in our Nation's high 
schools and we are getting what we pay for. As of now, the Federal 
funding in education targets the bookends of the education system--
concentrating on grades pre-K-6 and higher education. The ``missing 
middle'' is our Nation's secondary schools, which receive little to no 
funding from the Federal level. Funding for grades pre-K-6 totals 
nearly $18 billion. Funding for postsecondary education totals nearly 
$16 billion and that is without taking into account student loans or 
other tax incentives. However, funding for grades 7-12 is only about $5 
billion.
              why nclb doesn't work for secondary schools
    Unfortunately, the focus of NCLB reflects the current Federal 
funding priorities in education--NCLB was just not set up for secondary 
schools. I am not here to criticize NCLB. I am here to tell you why it 
does not work for high schools and how you can fix them in 
reauthorization. However, I believe it is critical for us to remember 
all of the core reasons NCLB was written and became law when we discuss 
the crisis in our Nation's high schools. The law was written to provide 
all children, including poor and minority children, with access to a 
high-quality, standards-based education; the same reason Federal action 
must occur at the high school level. NCLB, despite its shortcomings, 
has put a spotlight on the achievement gap--a startling gap that is 
illustrated in the shocking graduation rates I described earlier.
    NCLB was designed to address grades K-8--generally it did not even 
really contemplate the law's interaction with secondary schools. For 
example, the original Bush administration proposal was 28 pages and 
only mentioned high schools twice. In addition, NAEP, known as the 
Nation's report card, is only required in 4th and 8th grades so there 
is no on-going national measure of student achievement. And despite low 
literacy rates in the upper grades, Reading First, the Federal 
investment in reading skills, is only a K-3 program. As a result, NCLB 
policy is often neglectful of or even at odds with the needs of 
America's 14 million high school students, particularly the 6 million 
students who are at risk of dropping out of school each year.
    NCLB at its core is about accountability for improving student 
achievement. However, there is not true accountability at the high 
school level--the law looks at test scores but not if students actually 
graduate. It's as if we are clocking runners in a race every mile but 
then do not pay attention to whether they cross the finish line. 
Because Adequate Yearly Progress (AYP) is focused solely on test 
scores, there is a perverse incentive to push out the kids who do not 
score well. Further, these tests generally measure proficiency in the 
10th grade, not preparedness for graduation and beyond.
    Despite calculation of graduation rates being part of the law, 
there is no accountability tied to those rates. States calculate high 
school graduation rates in different and, in many cases highly 
inaccurate and misleading, ways. Subgroup graduation rates do not count 
for NCLB and therefore the graduation gaps and the low graduation rates 
of poor and minority are not reflected in AYP determinations. Even if 
the graduation rates were accurate and accounted for students in 
subgroups, NCLB does not require schools and States to make meaningful 
progress in increasing graduation rates. While States, districts and 
schools are held accountable for getting all students proficient in 
math and reading by 2014, there is no such ultimate graduation goal for 
graduation rates. The consequence is that most States do not have 
meaningful goals for improving graduation rates each year and schools 
can make AYP while showing little to no progress on graduation rates.
    In 2005, the National Governors Association (NGA) took an important 
first step in recognizing this problem and moving toward a solution. 
The NGA Graduation Rate Compact was originally signed by all 50 of the 
Nation's Governors pledging to adopt accurate and consistent 
measurements for reporting high school graduation rates. However, two 
States have since backed out of the commitment; only a few States have 
yet implemented the Compact rate; and because the Compact did not 
address accountability, definitions, rates, and growth goals for 
accountability are still not consistent State to State. NCLB should 
operationalize the Compact by requiring that graduation rates are 
disaggregated and increase over time as part of accountability.
    Beyond accountability, the school improvement requirements or 
sanctions under NCLB (which only apply to title I schools thus missing 
the vast majority of high schools) namely school choice and 
supplemental education services (SES), simply do not work at the high 
school level. School choice often is not applicable at the high school 
level. Seventy-five percent of school districts have only one high 
school. In cases where districts do contain more than one high school, 
they are often concentrated urban districts with many low-performing 
high schools. And in the cases where such districts do contain high 
performing high schools, those schools only have a handful of transfer 
slots available, thus ensuring no real improvement for a failing high 
school. In the case of SES, because title I funding is extremely 
limited, very few students in high schools actually receive the 
services. Further, given extracurricular, social and work demands, high 
school students are not likely to opt-in to extra tutoring. Finally, 
regardless of whether or not SES and school choice even could work for 
high school students, neither provide the research-based improvement 
strategies that will increase turn around low-performing high schools.
    At the root of why NCLB does not work for high schools is the fact 
that of title I funds almost never even reach high schools. Title I is 
both the ``carrot'' and the ``stick'' that gives NCLB impetus. NCLB 
requires all schools to report on their assessment performance every 
year, however sanctions only apply to and are funded for the schools 
receiving title I funds. Yet only 8 percent of title I participants are 
high school students. Other major funding streams are also not reaching 
high schools. Seventy percent of entering freshman cannot read at grade 
level. However, the major Federal investment in reading, Reading First, 
stops in third grade.
    Given the problems facing our Nation's secondary schools, secondary 
schools need systemic reforms that NCLB simply does not provide or 
require. Much is now known about how to renew and revitalize the 
country's middle and high schools so as to ensure that more students 
succeed. Local school districts and the States have an undisputed and 
critical role to play in redesigning the Nation's secondary schools to 
meet the needs of the 21st century, and many of them are working hard 
to implement effective reforms. Schools such as JEB Stuart High School 
in Falls Church, Virginia or Granger High School in Yakima, Washington 
and programs, such as the Institute for Student Achievement (ISA) or 
Talent Development, in communities scattered across the Nation are 
proving that with high expectations and the necessary support, today's 
students--even those who are most highly at risk of dropping out--are 
up to the challenge. These schools are successfully keeping students in 
attendance, improving their achievement levels, and graduating them 
prepared for success.
                 nclb reauthorization and high schools
    For all of the reasons I described earlier, the Alliance believes 
NCLB reauthorization must look at multiple means to improve the 
Nation's high schools from accountability and improvement to literacy 
to critical data systems. First, I will discuss accountability and 
school improvement, the cornerstone of Federal school reform policy.
                     accountability and improvement
    To turn around low-performing high schools, NCLB must include a new 
system of meaningful high school accountability system that is tied 
closely with school improvement. While the current structure of NCLB 
does not work for high schools, it can be built upon to leverage the 
student achievement gains and improved preparedness and graduation 
rates needed for students and the Nation to succeed.
    As discussed earlier, AYP currently does not include the 
appropriate indicators of a high school's performance. An appropriate 
measure of AYP at the high school level must include high-quality 
assessments that are performance-based and aligned to college and work 
ready standards not administered before 11th grade and consistent, 
disaggregated graduation rates. Both assessment performance and 
graduation rates should be required to increase over time. In this new 
system of accountability and improvement, such a measure of AYP would 
act as a ``thermometer'' to see if schools are meeting appropriate 
goals. In other words, it would tell us something is wrong but further 
diagnosis and treatment are needed.
    This improved measure of AYP would determine whether or not schools 
enter a new school differentiated improvement system. This new system 
is outlined in the Graduation Promise Act (GPA), which I am pleased to 
say, was introduced yesterday by Senators Bingaman and Kennedy. GPA 
authorizes a $2.4-billion High School Improvement and Dropout Reduction 
Fund to turn around America's lowest performing high schools and give 
students attending those schools a chance to graduate ready for college 
and work. The High School Improvement Fund would support more 
comprehensive State accountability and improvement systems at the high 
school level.
    As stated in the GPA, under this new system of improvement, States 
would set up new statewide systems that utilize multiple measures or 
indicators to appropriately assess high school quality. Formula grants 
would be distributed to the States, based on poverty and graduation 
rates, to establish and/or expand statewide differentiated high school 
improvement systems guided by research and best practice. These systems 
would be approved by the Secretary as part of a rigorous peer-review 
process. States would then develop a set of school performance 
indicators to be used, in addition to the new measures used to 
determine adequate yearly progress (AYP), to analyze high school 
performance, determine the amount and type of support each school 
needs, and guide the school improvement process. States would also 
define a minimum amount of expected growth on each school performance 
indicator to demonstrate continuous and substantial progress.
    States would then determine how data from the school performance 
indicators and AYP data will be used to place high schools in need of 
improvement into one of three school improvement categories. Unlike 
current law, how schools fit into the following categories is not 
determined by how long the school has been failing, but by how badly 
the school is performing. The first category is schools needing 
targeted assistance, which are schools that have just missed making AYP 
and are performing well on most indicators, but a targeted 
intervention, such as improved instruction for ELL students or a 
schoolwide literacy plan, is likely to improve student outcomes. The 
second category is schools needing whole school reform, which are 
schools that have missed making AYP by a significant margin or for 
multiple subgroups and are struggling on most other indicators. Such 
schools could benefit from a schoolwide strategy to address the 
multiple layers of school improvement demonstrated from research and 
best practice. The third category is schools needing replacement which 
are schools that are failing large numbers of students by most or all 
measures and likely have been for some time. Improving student outcomes 
in those schools would call for replacement with more personalized, 
rigorous and well-designed school models.
    Under this new system, development and implementation of the 
improvement strategies would come from the local level. For each high 
school that did not make AYP and was placed into one of the three 
categories I just discussed, district-led school improvement teams 
would use the school performance data, a school capacity audit and 
needs assessment, and data about incoming ninth graders, to develop 
appropriate school improvement plans. The high school improvement plans 
would lay out the evidence-based academic and nonacademic interventions 
and resources necessary to improve student achievement, reduce dropout 
rates, meet annual benchmarks, and make adequate yearly progress. 
Districts would then apply to the State on behalf of their high 
schools, for funds necessary to implement the high school improvement 
plans and complementary district-wide strategies. States would award 
subgrants to districts with approved applications, with funds going 
first to those districts serving high schools needing whole school 
reform or replacement.
    Districts and high school improvement teams would implement the 
high school improvement plans, directing funds first to implement the 
plans for schools in need of whole school reform or replacement. In 
subsequent years, high schools that meet the annual benchmarks on 
school performance indicators, even if they do not make AYP, could 
continue to implement the school improvement plan. High schools not 
meeting the annual benchmarks for 2 years would be redesignated into a 
different school improvement category and required to develop a new 
school improvement plan with State involvement.
    Research, evaluation and technical assistance are critical for this 
system to work. States would be able to reserve 10 percent of funds to 
implement the requirements of the statute and also to build the 
capacity to support the school improvement efforts. The Secretary would 
also reserve funds to provide technical assistance and regional 
training programs; to develop and implement or replicate effective 
research-based comprehensive high school reform models; and to evaluate 
the program and determine the most effective interventions.
    Consider a new, more appropriate measure of AYP and the High School 
Improvement Fund provide the foundation for true, systemic high school 
reform. However, alone, a new accountability and improvement system 
will not be successful in preparing students to graduate with the 
skills to succeed in postsecondary education and the workforce. NCLB 
must include other measures that will inform teaching, support students 
and provide the interventions that will ultimately improve student 
achievement.
                    graduate for a better future act
    I want to thank Senator Burr for introducing the Graduate for a 
Better Future Act, which specifically targets the dropout factories. 
The legislation, authorized at $500 million, provides States, 
districts, and schools with the resources and tools necessary to target 
interventions to high school students at risk of dropping out, improve 
graduation rates, and provide the rigorous curriculum necessary to high 
school students to succeed in postsecondary education and the 
workforce.
                            striving readers
    As I mentioned earlier, 70 percent of 8th graders cannot read at 
grade level. Unfortunately, the Federal investment in reading, the 
Reading First program, disappears after third grade, which is exactly 
the point at which expectations for student literacy increase. This 
lack of basic reading skills contributes greatly to students failing to 
master the knowledge they need to succeed after graduation, or simply 
dropping out entirely. In the last year, Congress has repeatedly 
discussed improving our Nation's competitiveness. Clearly education 
plays a critical role in how economically competitive we are as a 
Nation. I understand the Senate may soon consider legislation on this 
very topic. While the conversation has focused tightly on math and 
science, I ask you to consider the role literacy plays in the success 
students have in math and science. A 2006 report by ACT found that high 
school students with higher level literacy skills performed better in 
math, science, and social studies courses in college, had higher 
college GPA's, and returned to college for a second year at higher 
rates.
    In response to the need, Senators Sessions and Murray have 
introduced the Striving Readers Act, S. 958, which would improve 
literacy skills by helping every State, district, and school develop 
comprehensive literacy plans that would ensure every student reads and 
writes at grade level. Authorized at $200 million for fiscal year 2008 
and increasing to $1 billion over 5 years, the bill would support 
training teachers to use assessments and literacy strategies to help 
struggling readers, train leaders to support teachers, and provide 
reading materials for schools that lack them. NCLB must include 
Striving Readers so that low literacy is no longer a reason students 
fail to succeed in high school. I want to thank Senators Murray and 
Sessions for introducing this legislation and the numerous other 
members of this committee who have cosponsored this bill--Senators 
Dodd, Burr, Bingaman, Isakson, Harkin, Murkowski, and Brown.
                      voluntary national standards
    To be competitive, students need to leave high school with a 
college- and work-ready diploma. Our students and the Nation are 
spending billions of dollars at the college level and in the workplace 
on remediation because our students are not leaving high school with 
the necessary skills. The Alliance estimates that the amount that could 
be saved in remedial education costs at U.S. community colleges if high 
schools eliminate the need for remediation would be $3.7 billion a 
year. This figure includes $1.4 billion to provide remedial education 
to students who have recently completed high school. This figure also 
includes the almost $2.3 billion that the economy loses because 
remedial reading students are more likely to drop out of college 
without a degree, thereby reducing their earning potential.
    NCLB should establish a process for developing shared education 
standards to ensure that all students are held to the same high 
expectations aligned with the requirements of postsecondary education 
and the workforce. The Federal Government should also offer States 
high-quality performance assessments to regularly measure student 
progress toward those standards and fulfill the testing requirements of 
NCLB. This action would remove a significant financial burden from 
States and increase the quality of assessments. In addition, the 
Federal Government should provide States with incentives and supports 
for adopting such standards and aligning them with their key systems, 
such as their curricula, graduation requirements, and professional 
development. The need for such shared standards has been recognized by 
various members of this committee in legislation introduced by Senators 
Kennedy, Clinton, and Dodd.
                              data systems
    To turn around low-performing high schools, educators and 
policymakers need accurate information about how students are doing in 
school. High quality longitudinal data systems using individual student 
identifiers are critical to improving student achievement. However, 
most States and school districts have not yet fully implemented such 
systems. The Federal Government must help States build the 
infrastructure needed for data to be collected, reported to the public 
and used by educators to improve education. NCLB should include a major 
investment in grants to States to build such systems in accordance with 
the recommendations of the Data Quality Campaign, as well as grants to 
build the capacity to use data to improve teaching and learning through 
professional development, effective data collection and other key 
functions. NCLB should include $100 million in competitive grants to 
build those systems, and $100 million in formula grants to every State 
to align those systems with district systems and build educator 
capacity at State and local levels to use the data to improve teaching 
and learning.
                               thank you
    Again, I want to thank the chairman and the committee for their 
leadership on this critical issue. I urge you to seize the opportunity 
of NCLB reauthorization to take our Nation's high schools into the 21st 
century. The quality of high school education is increasingly central 
to national concerns, including securing the Nation's global economic 
position, reducing threats to national security, and assuring equal 
opportunity for a population that is growing increasingly diverse. By 
appropriately extending its education focus to include the needs of 
students in middle and high schools, the Federal Government can move 
the Nation from ``no child left behind'' to ``every child a graduate.''

    The Chairman. Thank you.
    We'll hear now from Tony Habit, who's the President of the 
New Schools Project in North Carolina. The New Schools Project 
is a public-private partnership focusing on improving North 
Carolina's high schools. The Project works to create small 
autonomous high schools across the State. Their work includes 
redesigning high schools, while creating technology-enabled 
high schools, early college high schools, and high schools 
focused on international studies, and on health and life 
sciences.
    He'll discuss the importance of the small school model, 
data-driven instruction, quality teachers, improving student 
achievement and graduation. He'll share the challenges North 
Carolina's faced in making high school a priority, as well as 
some of the successes that they're beginning to see.
    Let me just say, I've listened carefully about the 
importance of data. We have the IES--now it's called the 
Institute of Education Science. We spend $335 million in 
research on education. I'm going to ask the panel to consider 
recommendations on the type of research and data conducted by 
IES. Our committee will need to have a hearing on ``IES 
Reauthorization in the Future.'' I want your opinions about 
where we are on some of that material, and whether we ought to 
spend more, or do better. Perhaps some of you who are familiar 
with it can give us a little bit of information on the issues.
    We want to thank you so much, Mr. Habit. Again, thank you 
for your testimony, which was enormously helpful about what's 
happening in North Carolina. Please.

   STATEMENT OF TONY HABIT, PRESIDENT, NEW SCHOOLS PROJECT, 
                          RALEIGH, NC

    Mr. Habit. Thank you, Mr. Chairman and Ranking Member Enzi 
and members of the committee. I appreciate the opportunity to 
testify before you today and to consider the changes that are 
much needed and overdue in our Nation's secondary schools. It's 
an honor to be able to talk about the work that's taking place 
in my home State, North Carolina.
    In our State, we're very fortunate to have leaders who 
appreciate the urgency for change and the magnitude of change 
that must take place in the very near term. As has been 
referenced earlier this morning, Senator Burr--working with 
Senator Kennedy and Bingaman--have introduced the Graduation 
Promise Act, aimed at raising high school graduation rates. 
We're also very pleased that our Governor, Governor Mike 
Easley, has really championed secondary innovation and 
transformation during his two terms in our State. He has 
repeatedly connected that process to the need to ensure future 
economic vitality for North Carolina.
    We've also been very fortunate as an organization, to 
benefit from the remarkable philanthropic support of the Bill 
and Melinda Gates Foundation and their vast network of schools 
around the country who are learning, quite frankly, from a lot 
of research that's taking place in the field. Our State, like 
most States, and many States have really been punished 
handsomely by the unprecedented restructuring in our economy. 
And yet, when we look at what's happening with our students, 
there's very strong evidence that we are graduating students 
who are unprepared for the workforce that's before them and, of 
course, the students who are not graduating are being punished 
handsomely for that.
    In a poll we commissioned recently, half of North Carolina 
graduates, graduates who went on to enroll in college, reported 
that they felt there were major gaps in their preparation to do 
high-level college academic work. As I've referenced, far too 
many of our students never see graduation day and only 68 
percent of our students who enter the ninth grade in 2002 will 
walk across the stage in 2006. For our minority students and 
our poor students, the results are far, far worse.
    My organization, the North Carolina New Schools Project was 
established to accelerate the pace of innovation in our State, 
to ensure that all students have access to high-quality schools 
that will prepare them fully for college, for work, and for 
life. We have an aggressive three-pronged strategy for this 
work. The first, is to establish more than 100 focused and 
academically rigorous new high schools across the State. 
Second, help to create a sense of urgency and momentum around 
this change process for every member of our society in North 
Carolina. And third, advance funding and policies that will 
ensure that the change that's underway in our State will be 
sustainable and that it will ultimately benefit every single 
one of our communities.
    Since 2003, we have designed over 58 innovative new high 
schools across our State. That number will move toward 90 by 
September of this year. We engage with school districts and 
with schools in a 6-year process, a process that really 
recognizes the complexity of change, especially if that change 
is to be meaningful and sustained over a longer period of time.
    I'd like today, to offer four observations from our work in 
the field and working with these schools. The first, is that 
changing teaching in our schools really means changing belief 
systems.
    Stated simply, low expectations prevent effective teaching. 
In a typical high school, some students are tracked into 
demanding courses, which prepare them for a future beyond high 
school, while others are tracked into classes that offer little 
challenge, and even less future. In our partner schools we work 
to instill the notion that preparation to tackle new demanding 
content is the responsibility of the teacher more than that of 
the student. Teachers and administrators typically do not 
believe that all students can achieve at high levels, 
especially poor and minority children.
    To overcome this, we've taken hundreds of educators from 
North Carolina across the country, to sit in the classrooms of 
schools that are getting remarkable results with their 
students. While it seems counterintuitive, with greater 
challenge, students put forth greater effort and perform at 
higher and higher levels. Our students know this to be true.
    In a survey we conducted of recent graduates, 77 percent 
said that high school graduation requirements were not very 
demanding or were too easy, one of those two categories. Eighty 
percent of our graduates said they would have worked harder, 
had the demands been placed in front of them while they were in 
high school. As adults, the message is very, very clear. We 
have to expect more from all children, while we're addressing 
this need to transform our secondary schools.
    Second, being ready for college and being ready for work 
are now exactly the same. The overarching goal for North 
Carolina's innovative high schools is to ensure that every 
student graduates college-ready. We're even more explicit in 
asking that all students meet our State university graduation 
admission requirements. And second, that every student, as a 
goal, should earn college credit before they walk across that 
stage to receive their high school diploma.
    According to research by ACT, and others, the math, 
reading, and writing skills that graduates need to be ready for 
the new economy are really the same between that historically 
expected of a 4-year university and those of students who are 
going directly into the workforce. This means that students 
must all take more demanding courses. We know that they can 
meet these higher expectations.
    For example, in our early college high schools in North 
Carolina, these are schools that are based on the campus of a 
college or university where students in grades 9-12, or 9-13, 
are expected to earn both their high school diploma and 2 years 
of credit toward a 4-year degree. We're seeing a consistent 
pattern of poor children who are under-prepared for high-level 
academic work, being able to master those courses to lead to 
those college degrees.
    Third, changing schools to graduate all students to be 
college-ready means fundamentally rethinking how resources are 
applied in our schools. This means primarily the roles of 
adults. Most schools and districts lack the expertise or 
organizational structure with which to manage change and 
innovation or with which to effectively and meaningfully engage 
their communities. Current funding and professional development 
programs reinforce a piece-meal approach to change that 
typically fails to support a coherent, sustained, and focused 
model for schools.
    Our organization, the New Schools Project, supports clear 
supports, provides clear supports for new schools that deviate 
from this norm. That includes a commitment to professional 
development for teachers, principals, district administrators, 
and school-change coaches, which are all aligned along the same 
framework and the same targets. We believe that it is this 
alignment that is essential to success in changing the schools.
    Finally, on the notion of leadership--the creation of new 
kinds of schools requires new kinds of leaders. This requires a 
proactive effort to identify, recruit, place, and support 
principals who have the knowledge about school design, not just 
about pedagogy, and they understand their role to facilitate 
learning among teachers in that new school.
    While transforming schools in North Carolina is relatively 
recent, in the last few years, there are some promising results 
and I'd like to conclude with those results. More students are 
staying in school, more ninth graders are being promoted to the 
tenth grade, more students are coming to school, and most 
importantly for us, the early warning signal that teachers are 
saying that they see their new school as a place, a good place 
to teach and learn. In fact, teachers in new schools are twice 
as likely to say their new school is a good place to teach and 
learn, compared to the traditional high school in our State.
    These recommendations and considerations are really a tall 
order for us, to think differently about resources and about 
leadership. We bear dual responsibilities in this regard. We 
know what it means to take students and help them to be fully 
prepared for the new economy. We also know the cost to them and 
to society when they are not adequately prepared. The task in 
front of us is clear. All of us are very grateful for the work 
of this committee and the United States Congress in bringing 
forth solutions so that some of these important recommendations 
can be implemented.
    Thank you for the opportunity.
    [The prepared statement of Mr. Habit follows:]
                Prepared Statement of Tony Habit, Ed.D.
    Mr. Chairman, Ranking Member Enzi and members of the committee, 
thank you for the invitation to testify today. I am pleased to be with 
you to consider the urgency for change in our Nation's middle and high 
schools. My name is Tony Habit, and I am president of the North 
Carolina New Schools Project.
    We in North Carolina are fortunate to have leaders who appreciate 
both the urgency for change and the magnitude of the change that must 
occur. As you know, your colleague Senator Burr, along with Senator 
Bingaman, has introduced the ``Graduate for a Better Future Act'' aimed 
at raising high school graduation rates. Our governor, Mike Easley, has 
championed innovation in our State's secondary schools, repeatedly 
drawing the connection between that work and our State's continued 
economic vitality. As Governor Easley has said, North Carolina must 
create the most skilled, most educated workforce in the world, not 
simply in the United States.
    North Carolina also has benefited from the unparalleled 
philanthropic leadership of the Bill & Melinda Gates Foundation to 
transform the Nation's high schools to meet the demands of this 
century.
    By many traditional measures, North Carolina is fortunate to have 
high schools that in relative terms have succeeded over the last 
century in moving from institutions that served very few to ones that 
strive to serve all students. At 59 percent, North Carolina is ranked 
first in the country in the percentage of high school students taking 
advanced math courses.\1\ Ninety-three percent of our State's public 
high schools offer at least one Advanced Placement course.\2\ Seventy-
four percent of our State's 12th grade students took the SAT in 2005, 
and North Carolina had the second largest 10-year gain in SAT scores 
among States with over 50 percent of the population taking the SAT.\3\
---------------------------------------------------------------------------
    \1\ National Center for Public Policy and Higher Education (2004). 
Measuring Up 2004. Available at http://measuringup.highereducation.org/
default.cfm.
    \2\ Southern Regional Education Board (2003). Progress in Advanced 
Placement and International Baccalaureate in SREB States. Available at 
http://www.sreb.org/main/HigherEd/readiness/ap-ib.pdf.
    \3\ Public Schools of North Carolina (2005). The North Carolina 
2005 SAT Report. http://www.ncpublicschools.org / docs / accountability 
/ reporting / sat / 2005/sat_report_2005_part1 
.pdf.
---------------------------------------------------------------------------
    At the same time, North Carolina has felt acute pain from an 
unprecedented restructuring of the economy of our State and, for that 
matter, of our country and across the globe. In the first 5 years of 
this decade, for example, North Carolina lost nearly one-quarter of its 
manufacturing jobs--184,200 jobs in all. Over the next 10 years, the 
``Big Four'' of our State's manufacturing base--tobacco, textiles, 
apparel and furniture--which account for one in three jobs are 
projected to lose another 18 percent of those jobs.
    North Carolina lost 1,000 farms in 2005 alone, leading the Nation 
in that category according to the United States Department of 
Agriculture. Our State has lost more than 10 percent of its farms since 
2002.
    The State, however, has rebounded strongly. Investments in 
education led North Carolina to stronger employment growth in the last 
12 months than any other State east of the Mississippi.
    As low-skill, high-wage jobs have vanished, some communities are 
left bereft of opportunity. Idled middle-aged workers often are trapped 
in a string of low-skilled, low-wage jobs or are required to return to 
college for retooling without the preparation in high school required 
to succeed.
    There is strong evidence as well that our most recent high school 
graduates are under-prepared for the demands they are facing in the 
``real world.'' In a poll commissioned by our organization earlier this 
month, half of recent North Carolina high school graduates in college 
reported gaps in their preparation for college academic work and half 
of recent graduates in the workforce report gaps in their preparation 
to get a good job. A quarter of the recent graduates in college 
reported having taken a remedial course.
    In addition, far too many high school students never reach 
graduation. North Carolina recently released cohort graduation rates 
for the first time. They showed that only 68.1 percent of the students 
who entered 9th grade in 2002 graduated with the Class of 2006. For 
African-American students, the graduation rates was only 60 percent. 
For Hispanics, it was only 51.8 percent--a particularly troubling 
statistic given our State experienced nearly a five-fold increase in 
Hispanic enrollment from 1993 to 2003, according to the Pew Hispanic 
Center.
    My organization, the North Carolina New Schools Project, is an 
independent, not-for-profit corporation that serves as the nexus of the 
leadership of Governor Easley and our State Board of Education; the 
strong interest in change among the Gates Foundation and other 
philanthropies, public and private colleges and universities and the 
private sector; and the pressing economic need that North Carolina 
faces.
    While impressive in relative terms, the incremental gains of our 
high schools are insufficient both in terms of scope and in terms of 
pace to address a changing economy. North Carolina must graduate more 
students with more skills and knowledge than ever before. The New 
Schools Project was established to accelerate the pace of innovation in 
our State and to ensure that all students have access to high-quality 
schools that will prepare them fully for college, work and life.
    As a private-public partnership with our State's various education 
sectors, elected officials and the private sector, the New Schools 
Project can be nimble without sacrificing meaningful impact. We can 
work across institutional and political boundaries so that innovation 
is not frustrated by real or perceived barriers.
    In pursuing change and innovation, and with the leadership of 
Governor Easley and the State Board of Education, we have an aggressive 
three-pronged strategy:

    <bullet> Establish more than 100 focused, academically rigorous and 
effective innovative new high schools across the State;
    <bullet> Foster greater urgency for higher standards and schools 
that will make achievement of these standards feasible; and
    <bullet> Advance policies and funding to ensure that all North 
Carolina communities benefit from the promise of new schools.
            lessons learned on the road to meaningful change
    Since 2003, New Schools Project has partnered with local school 
districts and, in some cases, with national partners such as the Asia 
Society, the New Technology Foundation, and the KnowledgeWorks 
Foundation to open 58 innovative, highly effective high schools across 
North Carolina. We engage with a school and its school district for 6 
years--a planning year followed by 5 years of implementation. This 
timeframe recognizes both the scope of the change we are pursuing and 
its complexity. This day-to-day, on-the-ground experience in working to 
foster innovation--along with what we have gleaned from the experience 
of others in the field--has offered us important insights into what it 
takes to, in the vocabulary of this hearing, modernize high schools and 
middle schools. Let me offer you four specific observations to 
consider:
Changing Beliefs
    Simply put, low expectations are a cancer that can weaken a school 
enough to make significant changes in teaching impossible. It is clear 
how this occurs in a typical high school--some students are tracked 
into demanding courses which prepare them for a future beyond high 
school, while others are tracked into classes that offer little 
challenge and even less future. The usual justification is that 
``those'' students were not ``ready'' for Algebra II or honors English. 
Some parents reinforce these beliefs by advocating that certain 
students be discouraged from enrolling in advanced courses.
    If I do not believe that all students can do the work, I do not 
feel obligated to assume responsibility for changing the way my school 
is organized or the way resources are allocated to ensure that all 
students succeed. In the schools we partner with, we work to instill 
the notion that preparation to tackle new demanding content is the 
responsibility of the teachers, not the students.
    In our partnership with schools, we insist that they be fully 
representative of the student population of their district; we do not 
allow access to innovation to be limited to the best and brightest. 
This is one of our stakes in the ground to enforce what we believe as 
an organization about who can do the work. Notably, 12 of our 16 
partner schools subject to No Child Left Behind's growth provision last 
year made Adequate Yearly Progress.
    Teachers and administrators typically do not believe all students--
particularly poor and minority students--can master the knowledge and 
skills that lead to true opportunity until they see it first hand. As 
part of our work, we have taken hundreds of educators from across North 
Carolina on study visits to schools in other parts of the country whose 
results are irrefutable. Educators study some of the country's most 
successful high schools to learn how changed instruction and high 
levels of student support combine to improve student outcomes. This 
includes direct classroom observation that leads to deeper reflection 
about changing instruction. More than 20 schools such as University 
Park Campus High School in Worcester, Massachusetts, and Urban Academy 
at the Julia Richman Education Complex in New York City are used for 
these site visits. We are working with our partners across the State to 
establish these kinds of ``schools of promise'' within our State to 
make these transformative site visits even more accessible.
    By way of example, we are working with a school on the western edge 
of our State and meeting some resistance. Two teachers who were 
themselves graduates of the school went on a site visit to University 
Park and saw the possibility as well as the gaps in their own work. 
They have become our strongest advocates and have brought their 
colleagues along in moving forward.
    While it seems counter-intuitive, there is strong evidence 
supporting the premise that with greater challenge, students put forth 
greater effort and perform at higher levels. This is particularly the 
case when schools and students focus on the most important content and 
skills and when the material relates to students' own aspirations. The 
term ``comprehensive high school'' speaks to the difficulty of 
achieving this kind of focus in the traditional setting. We work to 
create high schools of no more than 400 students that provide focus 
either through an academic theme, an instructional approach, or their 
location on a college campus in the case of our Learn and Earn early 
college high schools. Additionally, a school's focus represents one 
strategy to enable teachers in the core courses to work together to 
make connections between courses and the world of work. The intent of a 
focus is not preparation for a specific career, but rather preparation 
for a lifetime of learning and workplace changes.
    As adults, we should not shy away from expecting more from all 
students. In our survey of recent graduates, 77 percent said that high 
school graduation requirements were easy to meet. Eighty percent said 
that they would have worked harder had the expectations been higher. 
And 68 percent said that they would have worked harder in high school 
had they known then what they know now about real world demands. As 
adults, we must bear the burden of our knowledge of what preparation 
for college, work and life requires and must act on that knowledge.
Setting College as the Goal
    Often, the limitations of beliefs about students' capabilities 
emerge around the notion of making every graduate ``college-ready.'' 
Inevitably, someone raises the challenge that not every graduate will 
go to college.
    The overarching goal of North Carolina's innovative high schools is 
to ensure that every student graduates college-ready. We are even more 
explicit in asking, first, that students meet the admission 
requirements of the University of North Carolina system and, second, 
that every student earn college credit before leaving high school.
    This college-ready imperative is intentionally provocative. It 
becomes a point on which a faculty must agree and collaborate. Another 
value to the small scale of our innovative high schools is that they 
allow teachers to be flexible in meeting the academic needs of 
students, to alter what is offered and for how long in ways that a 
2,000-student high school cannot.
    At the same time, this imperative is based on a growing body of 
research that shows that the skills high school graduates need in order 
to be ready for college and ready for the 21st century workplace are 
the same.\4\
---------------------------------------------------------------------------
    \4\ See ACT, Ready for College and Ready for Work: Same or 
Different?, 2006 and Achieve, Ready or Not: Creating a High School 
Diploma That Counts, 2004.
---------------------------------------------------------------------------
    The most recent such study, conducted by ACT, analyzed data and 
items from its college and work readiness tests, found that 90 percent 
of jobs that do not require a bachelor's degree but that do provide a 
``self-sufficient'' wage require the same level of mathematical and 
analytical reading and writing skills as those needed by students who 
are planning to enroll in a 4-year university.\5\ The report goes on to 
state that this finding suggests that:
---------------------------------------------------------------------------
    \5\ Examples of jobs cited in the report that do not require a 
bachelor's degree but do provide a ``self-sufficient'' wage include 
electricians, construction workers, upholsterers and plumbers. From 
ACT, Ready for College and Ready for Work: Same or Different?, 2006.

         ``all high school students should be educated according to a 
        common academic expectation that prepares them for both 
        postsecondary education and the workforce. This means that all 
        students should be ready and have the opportunity to take a 
        rigorous core preparatory program in high school, one that is 
        designed to promote readiness for both college and workforce 
        training programs.'' \6\
---------------------------------------------------------------------------
    \6\ ACT, 2006, page 2.

    However, another ACT study released this month showed that high 
school teachers' view of college-ready content misses the mark in terms 
of focus.
    Voters in North Carolina, perhaps intuitively, understand this 
convergence. In a poll we commissioned, 70 percent agreed that the 
skills to succeed at work and in college were the same. Eighty-four 
percent said it was important for nearly all high school graduates to 
move on to a 2- or 4-year college, with 69 percent calling it very 
important.
    We have good reason to believe that students can meet this higher 
expectation. Last year nearly three-quarters of students in North 
Carolina's early college high schools, from which students graduate 
with both a high school diploma and 2 years of college credit, took at 
least one college course. Their passing rates in those courses ranged 
from 76 percent to 100 percent. Nine high schools recorded passing 
rates of 90 percent or better.
    And the Governor's budget proposes to dramatically change this 
landscape by creating Learn & Earn Online opportunities for all 
students across the State, with a goal of enrolling 40,000 high school 
students in college courses by next school year. This coupled with his 
new EARN Scholarship opportunities, will provide students the 
opportunity to complete a 4-year degree debt-free.
Managing for Significant Change
    Meaningful change in high schools is essential and elusive; it is 
worth remembering that A Nation At Risk was a report about changing 
secondary education. Schools and school districts are rewarded for 
maintaining the status quo and for adding new programs. For example, 
rather than consider the absence of personalization and effective 
student supports within a school, districts will add a dropout 
prevention program or a specialist for that problem. At its heart, 
however, changing schools to graduate all students to be college-ready 
means redirecting all of the resources of a school to provide greater 
student support and to address highly focused targets for achievement. 
This is especially true in using the resources represented by the role 
and responsibilities of adults in the school.
    While the private sector has experienced decades of organizational 
restructuring in which workers are displaced in one function and then 
rehired in another to adapt to changing market conditions, the 
education sector possesses no such history. Changing the roles of 
adults in schools typically results in conflict and undermines the 
overarching school change process--if not derailing it altogether. Most 
schools and districts lack the expertise or organizational structure 
with which to manage change and innovation.
    Further, since communities and educators must embrace the need for 
change, the absence of resources and expertise for most schools and 
districts to effectively engage their communities means that well-
intentioned efforts can be undermined by relatively few, well-organized 
citizens or disgruntled educators.
    Current funding and professional development programs reinforce a 
piecemeal approach to change and typically fail to support a coherent, 
sustained and focused model for schools. It stands to reason that if 
tools and plans for school change are not supported by high-quality and 
aligned training that the likelihood of success will be greatly 
diminished.
    The New Schools Project and its partners provide specific supports 
for new and redesigned high schools that deviate from this norm. They 
include:

    <bullet> Teaching for Results: This annual series of intensive 
professional development sessions for teachers supports the use of 
protocols and other tools to sustain the focus on instruction, academic 
rigor and professional learning communities. The sessions stress 
differentiating instruction, teaching literacy across the curriculum, 
facilitating meaningful learning, and providing effective student 
support.
    <bullet> Leadership Institute for High School Redesign: In 
cooperation with the University of North Carolina Center for School 
Leadership Development and the Principals' Executive Program, the 
Leadership Institute for High School Redesign offers a peer support and 
professional development network for principals in new and redesigned 
high schools. The network promotes effective instructional leadership.
    <bullet> Coaching: Each new school also benefits from coaching 
services in which experienced educational leaders and master teachers 
assist with facilitating the overall change process and with the 
development of instructional strategies such as differentiation of 
teaching to meet individual needs of students; lessons and units which 
engage students in learning; and the improvement of literacy and 
mathematics skills.

    Investing financial resources and expertise in building the 
capacity of schools and districts to manage change is essential. 
Schools and districts must be expected to define a single, 
comprehensive model for change regardless of what that model might be 
and sustain the work over time.
    Further, within the broader model for change, strategies for 
professional development of teachers and school administrators and 
district office personnel must be tightly aligned and integrated so 
that they are connected at all levels to point in the same direction. 
In our work this year to help schools define rigor, the sessions 
involved both principals and teachers; in essence, they debated within 
their school the definition after visiting other schools in North 
Carolina thought to offer rigorous instruction. Expectations of 
teachers and principals must be aligned with those of district 
administrators for high school innovation to be sustained.
Rethinking Leadership
    Finally, a new generation of student-focused schools calls for a 
new model for school leadership. The principal in a traditional high 
school is a building manager first and an educator second. Schools 
which place teaching and learning above all else are led by principals 
who understand both school design and who facilitate among teachers an 
unrelenting focus on high quality teaching and learning.
    One element of our partnerships aimed at ensuring the 
sustainability of innovation is our expectation that our partner 
schools are completely autonomous, with its own principal and school 
budget, an essential step to create more entrepreneurial faculties with 
both the responsibility and accountability for the success of all 
students. This increases the demand for capable leaders.
    New, proactive initiatives to identify, recruit, place and support 
principals to lead schools are required. Leadership preparation 
programs should emphasize both school designs that support achievement 
and the role of principals as facilitators of adult learning in schools 
intended to strengthen teaching.
    Since most district administrative staff begin as principals, 
creating a new generation of school leaders who believe and act as 
though all students can succeed will inevitably change districts over 
time.
                      early, but promising results
    In the 2005-2006 school year, 24 redesigned high schools and Learn 
and Earn early college high schools were open serving 3,000 high school 
students. This was the first year of operation for nearly all 24 
schools. While transforming a school in meaningful ways that actually 
change teaching and learning is hard work, there are some initial 
results emerging that indicate that high school innovation is taking 
hold in North Carolina.

    <bullet> More students staying in school.--Nine of the 24 
innovative high schools last year had no dropouts. In the crucial 9th 
grade year, where research has shown that most high school students 
either dropout or choose to dropout, 14 of the 24 innovative high 
schools had no 9th grade dropouts. Overall, the 24 innovative high 
schools had a combined dropout rate of 3 percent (compared to the 
statewide high school dropout rate of 5 percent).
    <bullet> More 9th graders are being promoted.--To graduate, a 
student must complete required courses and be promoted from grade to 
grade. Research has shown that promotion out of 9th grade is an 
especially strong indicator of a student's likelihood to graduate. Last 
year, 15 of the 24 innovative high schools promoted more than 90 
percent of their 9th graders, with seven schools promoting 100 percent. 
Overall, the 24 innovative high schools had a combined 9th grade 
promotion rate of 88 percent (compared to the State 9th grade promotion 
rate of 85 percent).
    <bullet> More students come to school.--Student attendance in the 
first group of 11 redesigned high schools topped that of their 
comparison schools by nearly 1 percentage point. The initial 13 Learn 
and Earn Early College High Schools had attendance rates that surpassed 
their districts' rates by nearly 2 percentage points. Even fractional 
increases in high school attendance are considered significant.
    <bullet> More teachers believe in their schools.--The percentage of 
teachers in innovative high schools who ``strongly agree'' that their 
school is ``a good place to work and learn'' is nearly double the 
percentage in traditional high schools (48 percent compared to 26 
percent). In fact, teachers in redesigned and early college high 
schools are significantly more satisfied in every area measured by the 
State's Teacher Working Conditions Survey.
    <bullet> It's early, but some schools do better than expected.--In 
the first year of implementing their planned transformation, a third of 
the innovative high schools met or exceeded the expected academic 
growth projected for them in the State's ABCs accountability system. 
Nine of twenty-four schools outperformed the other comprehensive high 
schools in their districts.

    I know first hand that the observations I have made today place a 
tall order before our schools and our educators. They will not be able 
to meet this test alone. It will take sustained and strong support 
evidenced by political will and committed leadership. We bear dual 
burdens in this regard. We know what it means for students to be fully 
prepared for the demands of the 21st century--and the cost to them and 
to society when they are not. We also know, based on our work in North 
Carolina and on the work of our peers in other States, what it takes to 
create schools that can graduate all students ready for those 
challenges. We all must put our shoulder to the task of carrying that 
load on behalf of this Nation's children as Americans always have. They 
deserve nothing less.
    Again, I thank you for this opportunity to speak with you. I 
welcome any questions you may have.

    The Chairman. Thank you very much.
    Edna Varner, who's the Senior Program Consultant, of 
Hamilton County Public Education Foundation. Ms. Varner's works 
on middle and high school reform in Hamilton County Public 
Schools in Chattanooga, TN. Previously, she has been both a 
middle school and a high school principal. She'll discuss how 
Hamilton County has worked to improve high schools, middle 
schools by strengthening teacher workforce, improved data 
systems, and creating rigorous standards and curriculum. Edna 
will also discuss more Federal and State support could assist 
districts in these efforts. I'm sure we'd extend a warm welcome 
to you from our colleague and friend, Senator Alexander. Edna, 
thank you.

 STATEMENT OF EDNA VARNER, SENIOR PROGRAM CONSULTANT, HAMILTON 
    COUNTY PUBLIC EDUCATION FOUNDATION AND PUBLIC SCHOOLS, 
                        CHATTANOOGA, TN

    Ms. Varner. Thank you, Chairman Kennedy, Senator Enzi, and 
members of the committee for this opportunity to speak to you 
again. I was a part of the roundtable, and that was a wonderful 
experience. Time is short, it's hard for the teacher and 
principal to talk for 5 minutes, but I will attempt it, as my 
colleagues did.
    They have done an excellent job of giving a lay of the land 
and I don't want to repeat what they've said. I want to spend 
the time I have talking with you about some work we've done in 
Hamilton County and why we're making the recommendations we 
have.
    At about the time No Child Left Behind legislation was 
being written into law, we were already thinking about how to 
modernize our high schools. We were fortunate, in that, we had 
just gained some support from the Carnegie Corporation, 
Annenberg, Bill and Melinda Gates, and two local foundations, 
Benwood and Lyndhurst. They gave us the opportunity for some 
possibility thinking. Not only did they give us that 
opportunity, they also said, ``We will give you financial 
support and we will also give you technical assistance.''
    Our little group came together and our little group was 
made up of teachers, principals, community leaders, a public 
education foundation, and Hamilton County Schools Partnership. 
We may have been naive, but we just started thinking about some 
``what ifs.'' What if, for example, we started in Hamilton 
County to monitor what matters? And then we started thinking 
about what matters to us. It matters to us that all of the 
students of Hamilton County graduate, prepared for college and 
prepared to accept any of the opportunities of the 21st 
Century.
    It was important to us that all of our students get a 
rigorous, relevant education. It was important to us that the 
students in the lowest-performing schools would no longer be in 
low-performing schools. That all of our teachers would have the 
skills to teach all of our students.
    We decided, again maybe being naive, to act on those. One 
of the things we decided to do was to look at who was 
graduating and how students were graduating. We realized in 
2001 that we had several diplomas for students. We had special 
ed diploma, then we had a diploma for students who merely 
showed up for 4 years. We had a diploma for students who 
graduated meeting State requirements, but they weren't eligible 
for college. Then we had a diploma for students who would be 
eligible for college.
    We decided that that was not acceptable. And so, this was 
hard to do, and we talked about it at the roundtable, we 
decided--what if we had one diploma? And that one diploma 
guaranteed all of our students all of the opportunities? It was 
difficult to do, but our school board, our community--we had 
lots of conversations--and our school board passed that. After 
we achieved that, we thought now we've got to deliver on that. 
Because in talking to people the greatest concern was this. We 
would fail more students, we would have more students dropping 
out. We had to realize, we're already failing students, we 
already have large numbers of students dropping out.
    What do we do to make sure that we can deliver on the 
promise of all students graduating with the kind of diploma 
that would give them all of the choices available to any 
student?
    We established academies to replace our vocational courses. 
Our vocational courses, in the past, did a good job of training 
students for some jobs that would be available. We realized 
that in the 21st century, we don't even know what jobs will be 
possibilities for our students when they graduate.
    We decided that maybe what we ought to do is teach kids, 
not how to fix a car or to build a building, but how to be 
entrepreneurial in their thinking, how to solve problems. What 
kinds of questions do you ask when you're really curious? What 
does it mean to really be persistent? We decided that, while 
it's important to monitor whether students can define and spell 
those words, it is more important to determine the extent to 
which we're helping students be those words. It's a tall order, 
but it's really doable and we're showing that in Hamilton 
County.
    We also looked at our dropout rate and you've described it. 
We were shocked. We had not, we knew the numbers, but when we 
decided to sit down and spend whole evenings looking at them, 
because it was just unacceptable. We decided to do something 
simple. What if we call the students who had recently dropped 
out and ask them if they would come back to school, if we could 
find ways to help them graduate with a regular diploma? What if 
when students went to their guidance counselors and said they 
were thinking of dropping out, we talked to them about that and 
offer them that? What if we invested in a high school that 
could help students who were three or four credits short?
    I have a brother who dropped out of high school in his 
senior year and he's spent a lifetime as a college dropout. 
This has a personal meaning for me. What if we talked to 
students and offered a way for them to take those two or three 
credits and not be at a school with--they don't have to do 
cheerleading or whatever.
    We actually established an adult high school. We were 
hoping to lure 100 dropouts back. We're having to open other 
schools to meet the needs, to meet the demand. These are 
students who would have been dropouts for the rest of their 
lives.
    What if we tackled the issues of equity? I'm talking about 
issues of equity for promises that were made as early as 1954. 
What if in our district, we decided to do something about that? 
One of the best ways to achieve equity is to make sure that all 
students have access to a highly qualified teacher. This is not 
just highly qualified in the paperwork. Right now we have 
schools that can say, ``Check that off. We've got highly 
qualified teachers,'' but many of them are teachers who just 
graduated a month ago. They will be wonderful, but they're 
still working on that.
    Let me share this with you. Suppose I wanted my seniors to 
spend their senior year, instead of cruising through it, to 
learn about how our Government works, to learn, for example, 
how the Senate works. I couldn't hire you to. I'd have to, I 
can hire you now, a year ago I could have hired you, but I 
would have to send a letter home that says, ``Senator Kennedy 
and Senator Enzi are----
    The Chairman. We got some Republicans you can hire, over 
here.
    Ms. Varner [continuing]. Are not highly qualified.''
    [Laughter.]
    That is not to say we don't believe teachers should have 
the credentials. There are teachers in our schools who have 
their teaching credentials. There are subjects that schools 
can't offer because they're not highly qualified in those 
areas, even though they have all the talent and experience. 
We're advocating for broadening the definition of highly-
qualified teacher.
    In our districts we've set up networks. Some schools have 
great principals. Some schools have great teachers, and they 
produce great thinking. Some schools are not as fortunate. They 
have principals and teachers who are getting there.
    We have a series of networks, and our principals come 
together and they learn together, and so that every school 
benefits from the collective wisdom and knowledge in Hamilton 
County. We have change coaches. These are folks who are in the 
schools to help provide instructional, professional 
development. Those folks come together and learn together, so 
every child in our district benefits from the collective wisdom 
there. We have literacy coaches, and literacy is a big issue. 
The Striving Readers Act is a great step in the right 
direction.
    When you hear the numbers about students who are not 
reading well, and you visit a school you think, ``That can't be 
true, they sound as if they read well.'' Well, Cris Tovani, in 
her novel, in her book, ``They Read It, But They Don't Get It'' 
detailed a problem.
    We have kids in school who are fake readers. They seem to 
be reading well. They can call words, but the reason we aren't 
doing well in science and all those advance level courses is 
they're fake reading. They really don't comprehend. When do we 
find out? When they take the ACT, and we see those scores. 
Well, by the time we see those scores, we're doing what Doug 
Reeves calls, we're just doing, reading an autopsy report. 
They're already juniors and seniors and we've wasted middle 
school years, and we've wasted high school years, that we could 
have been addressing that.
    I'll stop now by just saying this. I'm proud of my 
district. We've done a lot to act on our ``what ifs,'' but not 
to suggest you can do it without the resources you need. You do 
need the resources. What if we had great data systems? What if 
we had support beyond the length of these grants? What if we 
had all the support that we could get from No Child Left Behind 
to act on the expertise that our schools have? I agree with my 
colleagues. What if we had that? Our recommendation is to help 
us make that ``what if'' a reality.
    [The prepared statement of Ms. Varner follows:]
                  Prepared Statement of Edna E. Varner
    Chairman Kennedy, Ranking Member Enzi, and members of the HELP 
Committee, thank you for the invitation to give testimony about middle 
and high school work and make recommendations on behalf of my 
colleagues for NCLB reauthorization.
    My name is Edna Varner. I am presently a senior program consultant 
for the Hamilton County Public Education Foundation and Public Schools' 
partnership, working primarily on middle and high school reform. I am 
also a leadership associate for Cornerstone, a national literacy 
initiative. In my previous life I was a teacher, a middle school 
principal, and a high school principal, serving students in schools 
with poverty as high as 98 percent. I am a product of Chattanooga 
public schools; in fact, my K-12 education was in segregated public 
schools in Chattanooga. In my experience working with schools in 
Hamilton County and across the country, I have had an opportunity to 
see some of our worst public schools and some of our best.
    In 2001, the Public Education Foundation in partnership with 
Hamilton County Schools began two major multi-million dollar 
initiatives aimed at transforming our 9 lowest performing elementary 
schools and reinventing all 16 of Hamilton County's high schools. These 
5-year initiatives joined existing long-term programs in leadership 
development, highly effective teaching, and community engagement. In 
2005, PEF launched a multiyear, multimillion-dollar project to boost 
achievement in Hamilton County's 21 middle schools, bridging the gap 
between successful elementary and high school work. In partnership with 
the school district, we have built support for students from 
kindergarten to college.
    Hamilton County Schools and PEF welcomed the promise of NCLB. We 
developed rigorous standards, engaged faculties in the training 
necessary to deliver appropriate instruction, and jumped at the 
opportunity for resources and technical support from the Carnegie 
Corporation, the Annenberg Foundation, the Gates Foundation, and local 
Foundations, Benwood and Lyndhurst. Even before the NCLB Commissions 
affirmed it, we understood that our students must be able to compete 
globally, that our standards must take us there, and that our 
assessments and data must give us confidence that we are reaching our 
goals.
    At the time NCLB came into existence Hamilton County Schools 
received a generous grant from the Carnegie Corporation and matching 
funds raised by our local Public Education Foundation to provide 
resources for possibility. We are proud to say our schools have been 
good stewards of the resources, using them to experiment with what 
ifs--what if we encouraged principals to build knowledge and capacity 
and to work in collaboration instead of competition and isolation? What 
if we provided schools with expert teachers to work as on-site 
professional developers and instructional coaches? What if we asked 
students how they learn best and engaged them as colleagues to help us 
achieve rigor and relevance through new career academies? What if we 
beefed up support for 9th grade and focused on 9th grade promotion 
rates? What if we made it possible for high school drop outs to drop 
back in to school and finish with a regular diploma? What if we invited 
outside evaluators to come into our schools and tell us what they see 
as strengths and weaknesses of our implementation practices? What if we 
strengthened the roles of parents on school leadership teams so that 
they can help inform curricular decisions? What if we held ourselves 
accountable for closing the achievement gap and for providing 
opportunities for all students to learn at higher levels? What if we 
used data routinely to guide our work? What if we held all our students 
to high standards and offered only one diploma that would make all our 
graduates eligible for postsecondary education? And what if we learned 
ways to sustain possibility at the end of the grants, knowing we can 
not go back once we have developed the habits of moving forward. And 
what if we are determined to do this and comply with NCLB.
              schools for a new society in hamilton county
Reinventing 16 High Schools With 16 Unique Blueprints for Success
    Every high school in Hamilton County is reinventing itself to 
create a more engaging, more challenging, and more personalized 
learning experience for all students.
    In 2001, PEF and Hamilton County Schools jointly received an $8 
million Schools for a New Society grant from the Carnegie Corporation 
of New York, the largest private grant in the history of our schools. 
PEF committed to raise a matching $6 million, making a total of $14 
million dedicated to high school reform.
    Because Hamilton County high schools are unusually diverse--urban, 
rural and suburban, as well as magnet and conventional zoned schools--
each school has developed its own blueprint for reform while addressing 
four basic goals: to establish a more challenging, relevant and 
engaging curriculum; to improve teaching by providing more professional 
development for teachers, leaders and staff; to create a more 
personalized and engaging experience for students; and to allow more 
flexibility to meet student needs more effectively.
    A key element is a new single-path diploma for all students. 
Beginning with students entering ninth grade in 2005, the single path 
diploma will raise graduation requirements for all students and put 
them on a track that will prepare them to graduate with a diploma that 
qualifies them to enroll in a 4-year college or obtain a higher skill 
job.
    Eleven high schools have now established career academies. The goal 
is to create interest-driven, challenging learning experiences and to 
increase student achievement by fostering small learning communities. 
Academies at different schools include business & technology, 
engineering, environmental sciences, global studies, transportation, 
health sciences, and construction. Some schools have several academies. 
All academies combine college preparatory courses with a career theme 
to make academic learning more engaging and challenging. Ninth grade 
can be a make-or-break year, often ending in dropout or setting a long-
term pattern of low expectations and low achievement. That's why all 
schools are addressing the ninth grade year through summer transition 
programs and some are creating ninth grade academies that give students 
more individual attention in this critical year.
    Other important strategies include eliminating low-level courses, 
increasing the number of low-income and minority students who take 
rigorous academic courses, providing advisory classes for all students 
and expanding the use of literacy coaches to increase reading skills of 
all students.
    Building a working partnership between PEF and the school system on 
the scale required by this initiative has been vital. The school system 
has supported the efforts of individual schools by taking many steps to 
create a decentralized environment in which new ideas can be nurtured 
and practiced.
    So that every student has access to the best Hamilton County has to 
offer, we have created networks of principals, change coaches 
(established at schools to provide on site expertise), college access 
counselors, and literacy leaders. Networks meet monthly to learn 
together and share best practices to take back to individual schools.
    In 2005, we launched a planning year of work to build on the 
success of the high school initiative and bridge the gap with Middle 
Schools for a New Society.
    This has been the work of Hamilton County Schools and the Public 
Education Foundation since 2001. In some areas we are succeeding. Some 
of our data are included in this testimony to show our progress. We 
have momentum and evidence to support it, but we have not reached the 
high goals we have set for ourselves--all of our students achieving at 
high levels and graduating with the knowledge and skills to pursue any 
opportunity available to students of the 21st century. This is why we 
are here today to ask for your help.
                nclb implementation: promises, promises
    While much of the discourse on the subject of NCLB is around 
closing the achievement gap for subgroups, a gap that needs equal 
attention is the gap between overall intention and reality. One reality 
is that NCLB is attempting to deliver on an unkept promise made years 
ago in the form of a 1954 landmark decision declaring separate but 
equal schools inherently unequal. The separate but equal schools for 
that century were visibly black and white. For the 21st century the 
distinctions are less obvious because students of poverty come in all 
colors. More than 50 years since that decision, it should be impossible 
to walk into an empty school on the weekend and tell who it serves by 
looking at the children's environment and their work. The broken 
promises are even clearer if one visits a school when children are 
present.
    With No Child Left Behind, we received another promise: that public 
schools would now be held accountable for at least the promise of 
having students bloom where they are. But blooming in spite of 
overwhelming challenges is reminiscent of an era we hoped to leave 
behind. Children in the lowest performing schools do not get the same 
education as their peers in schools with resources, access to large 
numbers of highly skilled adults, and diversity. The climate and 
performance of a school is very different when the school is constantly 
faced with heavy sanctions if the scores are not up, when the school 
can not attract the best teachers (teachers who are creative and 
innovative and find no time for their talents in ``schools in 
improvement'') or the best principals (the heads are the first heads to 
roll). These schools are inherently unequal, and that is not what we 
promised.
    Children in the lowest performing schools can transfer to other 
schools where their poor test scores are unwelcome (a few poor test 
scores can mean the difference between AYP success or failure) and so 
unwelcome test scores translate into unwelcome children. When they are 
welcomed, their teachers may feel unprepared for the challenges they 
bring, so these children are pulled out for special ``remedial 
classes'' where they remain--not just left behind, but left out.
    Schools want the promises of accountability, but they want to feel 
equal to the challenges accountability brings. That requires 
resources--as predictable as interventions and sanctions. Educators are 
frustrated, of course, by poor test scores, but they are equally 
frustrated by scores from low-level tests that say their students are 
making great progress when teachers know they are not. (Compare 
published State test scores to NAEP scores).
    Educators want to prepare students for life and work as well as for 
tests. We understand the challenges of modernizing for the 21st 
century, especially preparing our students for jobs and opportunities 
that we may not imagine at this moment. We can be globally competitive 
with populations that far outnumber us, just one more reason to leave 
no child behind. That is a promise we can keep, but not until we 
confront the realities of NCLB implementation and work harder to make 
them reflect the intent.
                    recommendations for improvement
    We concur with many of the recommendations by the NCLB Commission. 
The following three are high priority for middle and high schools.
Recommendation 1: Support Highly Qualified and Effective Teachers and 
        Principals
    We must invest in teacher capacity, and that costs money.
    We especially recommend greater investment in building teacher 
capacity at the secondary level. The overwhelming percent of title I 
funds go to elementary education, yet data show increasing need for 
support at the secondary level. We are not suggesting that elementary 
schools do not need these funds and we know that trying to use existing 
funds more creatively only shortchanges our children. We need 
additional funding to support more capacity building for secondary 
teachers and principals who need high quality professional development 
that prepares them to prepare their students for a world that is 
rapidly changing.
    We also recommend using NCLB to break the log jam on differentiated 
pay or incentive payments for shortage area teachers (math and science) 
to teach in hard-to-staff schools, for example, high poverty middle 
schools. We need increases in funding for principal and teacher 
leadership development.
Recommendation 2: Support Fair Accountability and Improved Data Systems 
        to Track Student Performance
    We encourage support of the following recommendation by the NCLB 
Commission:

    <bullet> Improve the accuracy and fairness of AYP calculations by 
allowing States to include achievement growth in such calculations. 
These calculations would enable schools to receive credit for students 
who are on track to becoming proficient within 3 years, based on the 
growth trajectory of their assessment scores, when calculating AYP for 
the student's school. Including growth as a factor in AYP will yield 
richer and more useful data on student performance--both for the 
classroom and for school accountability purposes.
    <bullet> To determine growth, it is crucial that States have in 
place sophisticated, high-quality data systems that can track student 
performance over time and assessment systems that can monitor student 
growth from year to year. Therefore, we recommend that States be 
required to develop high-quality longitudinal data systems that permit 
the tracking of student achievement over time.
Recommendation 3: Increase Funding for Literacy and Numeracy
    Whether students remain in low performing but improving schools or 
they transfer to higher performing schools, their ultimate success 
depends on their level of literacy and numeracy. Research is telling us 
that even high performing students are able to mask weak skills until 
they begin testing for college. The Federal Government spends $1 
billion (or $72 per child) for literacy in grades K-3, but it only 
spends $30 million (or 13 cents per child) in grades 6-12. We get what 
we pay for--4th grade NAEP scores have risen significantly in the past 
5 years. Unfortunately, 8th and 12th grade NAEP scores have remained 
flat or even declined.
    Without the literacy skills needed to succeed in all subjects, 
students will be left behind. The Federal Government must invest in 
literacy in NCLB. We appreciate the Federal Striving Readers program 
for older students. We also urge you to support the Striving Readers 
bill introduced in the Senate that would expand and strengthen Federal 
efforts in adolescent literacy. The Striving Readers Act is a step in 
the right direction for improving the achievement of all students:

    <bullet> The bill would provide targeted intervention to students 
far behind;
    <bullet> The bill would train teachers in all core subjects to use 
literacy strategies; and
    <bullet> The bill would include grades 4 to 12 so that all grades 
(K-12) are served.

    The Striving Readers Act can also help all States improve literacy. 
The current Striving Readers program serves only 8 cities across the 
country; 150 districts applied, and Memphis schools in Tennessee 
received one of the grants. The proposed Striving Readers Act would 
ensure every State is served.
    In conclusion, all of our children deserve our best, and our 
teachers and principals deserve the training and resources to offer 
nothing less. Accountability helps us confirm that we are doing our 
best work. We welcome that. We appreciate the opportunity to share our 
experiences and make our recommendations to the committee. America has 
always been a land of promise. If we continue to work to improve the 
model, NCLB can be a promise kept. Again, thank you for this 
opportunity.
                   Hamilton County High School Data 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Good for you. Thank you so much.
    Final witness this morning, John Podesta, the President and 
CEO, Center for American Progress. John Podesta was Chief of 
Staff and Policy Advisor to President Clinton. He will discuss 
the Center's recommendations, how to increase graduation rates, 
including increased Federal support, promoting State and local 
initiatives, investing in research and strategies of work, 
building State and district capacity, developing and 
implementing proven models.
    He's an old friend. We welcome him to the committee. Thank 
you, John.

   STATEMENT OF JOHN PODESTA, PRESIDENT AND CEO, CENTER FOR 
               AMERICAN PROGRESS, WASHINGTON, DC.

    Mr. Podesta. Thank you, Mr. Chairman and Senator Enzi and 
members of the committee. I appreciate the opportunity to 
testify before you this morning.
    My written testimony lays out the specific arguments about 
why I think the Bingaman, Burr, Kennedy bill that was recently 
introduced, the Graduation Promise Act, is a necessary and 
vital step toward improving our Nation's graduation rates. This 
morning, I'd just like to make three brief points.
    First, the detrimental effects of our Nation's graduation 
crisis, coupled with the overall poor State of our children's 
educational proficiency, really just can not be overstated. 
Simply put, I think we're headed, as a Nation, toward a 
significant erosion of our economic well being and our way of 
life, unless we find more effective ways to keep our kids in 
school, increase their ability to compete with others in a 
turbulent, globalized economy.
    In America today, two and three students leave high school 
unprepared for college or the modern workplace. While at the 
same time, the Department of Labor estimates that almost 90 
percent of the fastest-growing jobs in the United States 
require at least some postsecondary education. In the shifting 
global economy where knowledge and skills are crucial to good-
paying jobs, too many of our students are falling off the track 
to economic independence and advancement. We know that's much 
worse for poor kids and children who are members of racial 
minorities.
    That hinders our Nation's overall competitiveness, as 
students in other nations become better prepared for the jobs 
of the future. In turn, the lack of basic educational 
attainment, unduly consigns millions of young people to a life 
of low earnings and poverty, as the other panelists have talked 
about.
    The graduation crisis in our schools must, therefore, be 
seen as a genuine threat to our Nation's prosperity. I just 
would note that that is the heart, I think the heart of the 
reason why the strange bedfellows of the Center for American 
Progress and the Chamber of Commerce, Tom Donahue and myself, 
came together recently to propose a joint platform for 
education reform, whose targets for reform include the 2,000 
high school dropout factories that Bob's talked about.
    I raise that because, for those of note, who know me and 
Tom, we don't agree on that much. This is not a left-right 
issue, this is not a partisan issue. I really want to take a 
moment to commend this committee for approaching this issue in 
a bipartisan way and finding the right solutions for our 
Nation's kids and our Nation's economy.
    Second point I want to make, as some of the other panelists 
have made, is that there are innovative and proven solutions to 
address the graduation crisis and increase the academic 
readiness of our students. We know they exist. We recently did 
a report with Jobs for the Future, which highlights approaches 
like expanded learning time, rapid response, intervention, and 
intensive focus on language and math skills in the ninth grade, 
which all help to better prepare students for advancement to 
the sophomore year, which is a strong predictor of future on-
time graduation.
    We also know the importance of creating more challenging 
academic environments, developing more direct connections 
between academic standards and college or job readiness 
requirements, and making explicit the links between high school 
and postsecondary opportunities. States and cities from New 
York to Chicago to Portland, Oregon, as the chairman noted, all 
across the country, have all created successful policies and 
programs to increase graduation success, and many have, of 
those programs have been successful.
    Let me just note one, the Multiple Pathways to Graduation 
Program in New York City, which replaced 20 of the lowest-
performing high schools with 189 new small schools. Many of 
those schools are now graduating two to three times as many 
students who have fallen off the normal path than other high 
schools that they replaced.
    Third, the Graduation Promise Act that, as I mentioned, I 
think is a critical tool to help lower the dropout rates, 
improve academic readiness, and support proven models to keep 
kids in school and on the path to educational success. There's 
a clear role for the Federal Government in addressing our 
Nation's dropout crisis. I love the Gates Foundation. You see 
some of their grantees here, but it's not enough to just rely 
on the Gates Foundation to fund innovative means of improving 
school graduation and performance. Worthwhile State and local 
efforts deserve Federal support, as well, and that's why I 
think this committee is considering what they need to get done.
    The Graduation Promise Act provides a critical set of 
Federal tools to assist States as they fight high school 
attrition. It seeks to directly interrupt the dropout crisis in 
the worst performing schools. In addition to the Federal, 
State, local partnerships for improving low-performing high 
schools, title II of that act will offer new grants to schools, 
higher education institutions, non profit organizations, and 
other partnerships to develop specific ways to help current 
dropouts, perspective dropouts, and older students, and those 
facing English language barriers, better navigate high school 
toward the goal of on-time graduation and solid preparedness 
for college or a career. Title III of the Graduation Promise 
Act also authorizes additional competitive grants to States to 
devise successful policies to align the twin goals of higher 
graduation rates and maintaining high academic standards.
    In 1989, Congress set a goal that America's schools should 
have a 90 percent graduation rate. We still haven't bumped up 
over 70 percent. Seven in ten students only, graduate from high 
school. If you look at racial and ethnic minorities, only about 
half are graduating on time. That's unacceptable, it's 
detrimental to our Nation's long-term economic competitiveness. 
I think the efforts that this committee is undertaking will 
prove practical, cost-effective, and reasonable steps toward 
improving life expectations of our young people and reversing 
that, that potential for economic tragedy for our country.
    I strongly encourage the committee to move both the 
Graduation Promise Act and the other initiatives that have been 
discussed this morning.
    [The prepared statement of Mr. Podesta follows:]
                 Prepared Statement of John D. Podesta
    Thank you, Chairman Kennedy, Senator Enzi, and members of the 
committee. I am John Podesta, President and Chief Executive Officer of 
the Center for American Progress. I am also a Visiting Professor of Law 
at the Georgetown University Law Center.
    I appreciate the opportunity to be with you today to discuss the 
serious and growing graduation crisis in American schools. As the 
committee considers the reauthorization of the No Child Left Behind 
Act, it is imperative for our Nation's economic success--and for the 
life chances of our children--that you examine ways to not only improve 
school standards and accountability but also increase the ability of 
States and localities to keep kids in school and move them successfully 
through to graduation.
    I would like to talk with you today about the Graduation Promise 
Act (GPA), introduced yesterday by Senators Bingaman, Burr, and 
Kennedy, and developed with the support of the Center for American 
Progress, Jobs for the Future, the Alliance for Excellent Education, 
and the National Council of La Raza. I believe the GPA is a necessary 
and vital step toward improving our Nation's graduation rates. It will 
provide critical Federal resources to aid States in their efforts to 
develop, implement, and expand proven methods for keeping a diverse 
range of students in school and on the path to economic success.
    It is well established that our students have fallen behind past 
generations of Americans and young people in other nations in terms of 
on-time high school completion rates. For decades now, the United 
States on-time graduation rate has failed to top 70 percent. This is 
below national graduation rates recorded in the middle of the twentieth 
century and well below current graduation rates in other countries. The 
United States ranked first in the world in terms of secondary school 
graduation rates 40 years ago. Today it ranks 17th.
    For racial and ethnic minorities, the statistics are even grimmer. 
Graduation rates for African-Americans and Hispanic students today 
range between 50 percent and 55 percent. Every year we lose more and 
more of these students in schools that are essentially ``dropout 
factories,'' a term used by Johns Hopkins University researchers Robert 
Balfanz and Nettie Letgers to describe the 2,000 worst performing 
schools in terms of graduation rates.\1\
---------------------------------------------------------------------------
    \1\ Balfanz, Robert and Nettie Letgers, ``Locating the Dropout 
Crisis: Which High Schools Produce the Nation's Dropouts? Where are 
They Located? Who Attends Them?'' Report 70, Johns Hopkins University, 
September 2004.
---------------------------------------------------------------------------
    In a rapidly shifting global economy, where knowledge and skills 
are crucial to good paying jobs, too many of our students are falling 
off the track to economic independence and advancement. In turn, the 
lack of basic educational attainment unduly consigns millions of our 
young people to a life of low earnings and poverty. High school 
dropouts are twice as likely to be unemployed as those with diplomas; 
working dropouts are far more likely to have low-wage jobs and fewer 
health and retirement benefits than others.
    It is clear that a high school diploma is the bare minimum 
requirement for decent work and economic security in today's world. It 
is thus incumbent upon all of us to do more to ensure that our students 
stay in school and on the path to greater intellectual achievement and 
improved job skills. In a nation with the resources and talent of ours, 
graduation should never be a ``fifty-fifty'' proposition for anyone.
    In November 2006, the Center for American Progress and Jobs for the 
Future originally proposed the Graduation Promise Act as a way for the 
Federal Government to support States in their efforts to boost 
graduation rates.\2\ In a report entitled, ``Addressing America's 
Dropout Challenge,'' Adria Steinberg, Cassius Johnson, and Hilary 
Pennington describe a range of successful State programs for improving 
school completion rates and propose several policies that serve as the 
basis for the exact bill we are discussing today.
---------------------------------------------------------------------------
    \2\ Steinberg, Adria, Cassius Johnson, and Hilary Pennington, 
``Addressing America's Dropout Challenge: State Efforts to Boost 
Graduation Rates Require Federal Support,'' Center for American 
Progress and Jobs for the Future, November 17, 2006. [http://
www.americanprogress.org/issues/2006/11/graduation.html]
---------------------------------------------------------------------------
    The CAP/JFF report highlights how extended learning time, rapid 
response and intervention when students fail or fall behind, alongside 
intensive focus on language and math skills in the 9th grade, all help 
to better prepare students for advancement to sophomore year--a strong 
predictor of future on-time graduation. Other research featured in the 
report highlights the importance of creating more challenging academic 
environments for potential ``off-track'' students, developing more 
direct connections between academic standards and college or job 
readiness requirements, and making more explicit links between high 
school and postsecondary college or job opportunities through greater 
college exposure and internships.
    Modeled on these and other efforts, the authors of the report 
feature a number of current State-level policies and programs to 
increase graduation success. For example:

    <bullet> Indiana enacted the Dropout Prevention Act in 2006 to 
require schools to identify 9th graders who are falling behind and then 
advise them on ways to catch up and get additional tutorial help.
    <bullet> New York City has created a program to increase ``multiple 
pathways to graduation,'' by offering students of various ages and 
academic achievement different options for getting back on track, 
including transfer schools that provide small, targeted aid for at-risk 
students. These schools are now graduating two to three times as many 
students who have fallen off the normal path than other high schools.
    <bullet> Other school districts in cities from Chicago and Boston 
to Milwaukee and Chattanooga have put in place a range of methods for 
predicting which students are most likely to dropout and devised 
effective strategies for keeping these kids in school and improving 
their college and job preparedness. Graduation rates are showing signs 
of improvement in all of these cities.

    As these State and local efforts have shown, identifying potential 
dropouts and then executing strategies for keeping students in school 
should not be an episodic process. It requires sustained monitoring, 
creativity, and specialized intervention in order to succeed. 
Researchers and practitioners know that we can dramatically improve 
graduation rates, but they need more support in order for the 
strategies to take hold and work over time.
    The Graduation Promise Act, therefore, proposes a set of Federal 
efforts to assist States in fighting high school attrition in three 
primary areas: more directly interrupting the dropout crisis in the 
worst performing schools; developing new strategies for improving 
graduation rates while maintaining academic standards; and investing 
more in proven methods for increasing graduation rates and supporting 
State policies in this area.
    Since Bob Wise has addressed the general problem of low-performing 
high schools that is the core challenge addressed in the first part of 
GPA, let me focus on the second and third aspects of the bill.
    Title II of the Graduation Promise Act authorizes the Secretary of 
Education to award $60 million in competitive, peer-reviewed grants for 
the development, execution, and replication of promising and innovative 
methods to help schools prevent dropouts. In devising this provision, 
the goal was to provide seed money for empirically-driven, 
methodologically rigorous pilot programs that will help schools 
increase graduation rates without sacrificing their academic standards.
    As the authors of the CAP/JFF report describe, there is a useful 
precedent for this type of experimentation in the National Science 
Foundation's Statewide Systemic Initiatives Program of 1991:

          Having determined that it was critical to enable dramatic 
        changes in the way mathematics, science, and technology were 
        taught, Congress seeded efforts in 25 States to align policy, 
        develop new standards and assessments, and set up research and 
        demonstration schools that would serve as models for statewide 
        reform. The results: demonstrable improvements in hands-on 
        school work and small-group work in motivating student 
        inquiries; better instructional materials; and more standards-
        based policies for curriculum improvements, student assessments 
        and teacher preparations.\3\
---------------------------------------------------------------------------
    \3\ Steinberg et al., p. 17.

    Like these past efforts, Title II of the Graduation Promise Act 
will offer new grants to schools, higher education institutions, 
nonprofit organizations, or other partnerships to develop specific ways 
to help current dropouts, prospective dropouts, older students, and 
those facing English-language barriers better navigate high school 
toward a goal of on-time graduation and solid preparedness for college 
or a career.
    In determining the ultimate viability and success of these 
programs, and the potential worthiness for future replication, Congress 
and the Secretary of Education will want to explore a number of 
important criteria for success. For example:

    <bullet> Does the intervention program lead to improvement in 
achievement, graduation rates, and other key school outcomes above and 
beyond what would have occurred without the intervention?
    <bullet> Why and how were these effects achieved?
    <bullet> What aspect of the reform drove the effects?
    <bullet> What was the role of enabling conditions (including new 
policies)?
    <bullet> Was the cost worth it in terms of outcomes? \4\
---------------------------------------------------------------------------
    \4\ Steinberg et al., p. 22.

    To help answer these and other questions, any recipient of GPA 
grants will be required to collect and analyze relevant data on the 
success of various programs and disseminate this information to school 
districts and State and local education agencies. The Secretary of 
Education will also have the authority to commission outside, 
independent evaluations of these programs to measure and assess the 
impacts of these programs.
    In addition to providing grants for innovative new programs, Title 
III of the Graduation Promise Act authorizes another $40 million in 
competitive grants to States for devising successful policies for 
aligning the twin goals of achieving higher graduation rates and 
maintaining high academic standards and college/career readiness.
    In order to avoid more ``dropout factories'' in America, title III 
requires that each participating State first conduct a so-called gap-
and-impact analysis of the policies, regulations, and laws affecting 
the following areas: school funding; data capacity; accountability 
systems; interventions in high priority secondary schools; new school 
development; and dissemination and implementation of effective local 
school improvement activities throughout the State.
    Following this analysis, States will then use their grants to 
develop policies to align their school systems with the methods that 
work best to keep students in school and better prepare them for the 
future.
    As Indiana, New York, Louisiana, and other States have shown, there 
are proven methods for moving ``off-track'' students into alternative 
learning environments such as small schools and other recovery models 
for struggling students. States are also implementing stronger policies 
to align higher graduation rates with better college preparation and 
career-readiness targets.
    But these efforts require more sustained funding in order to be 
given a full chance to work for consecutive generations of students. 
Title III of the GPA will allow more States to address the policy gaps 
between innovative models for graduation success and the current 
structure of their school systems.
    Congress set a goal in 1989 that America's schools should have a 90 
percent graduation rate. Eighteen years later, roughly 7 in 10 
students--and only half of racial and ethnic minority students--
graduate on-time from high school. This is unacceptable and detrimental 
to our Nation's long-term economic competitiveness.
    Equally important, there is no reason for our Nation's schools to 
continually return such paltry graduation numbers. Educators and 
policymakers know more than ever about how best to close the 
``graduation gap'' and better situate our students in the global 
economy. The Graduation Promise Act would provide critical support to 
these efforts and would signal a strong Federal commitment to prevent 
millions more American students from dropping out of school and 
limiting their opportunities in life.
    The Graduation Promise Act represents practical, cost-effective, 
and reasonable steps toward improving the life expectations of our 
young people. I strongly encourage the committee to move this bill 
forward.
    Thank you, Mr. Chairman and the members of the committee, for 
inviting me today. I'd be happy to take any questions you may have.

    The Chairman. I want to thank the panel. This has been an 
extraordinary, helpful panel. They've outlined the challenges 
in a very informed way and have all made a series of very 
constructive recommendations about what our roles are in 
improving middle and high school education. It's been a very, 
very positive, very helpful, tough-minded, but useful.
    I want to thank Senator Murray for joining us here. She's 
been particularly concerned about these issues as a former 
teacher herself, and a school board member. She brings to our 
committee a very special insight and has been extremely active 
and involved in policy matters, particularly in the areas of 
dropouts and education issues. We thank her.
    We're joined by Senator Burr, who has been mentioned with 
Jeff Bingaman, I was delighted to join with them on this 
targeted program to deal with middle schools. Thank Senator 
Isakson, who's enormously interested in this issue, these 
issues of education.
    Senator Bingaman, I know has to go to the floor on the 
consideration of the America Competes Act, so I'll ask him if 
he'll be our first questioner.
    Senator Bingaman. Well, thank you very much, Mr. Chairman. 
I don't have questions. I did want to just say a word, though, 
and thank you for your leadership, and Senator Burr for his 
leadership and, of course, Senator Enzi, and all the others on 
this committee that have worked hard to try to focus on this 
problem.
    I do think around here is, my observation over the time 
I've been here is that, you can only take action, significant 
legislative action, when you've got a critical mass of 
awareness and concern about a problem. I think we are to a 
point where there is a critical mass of awareness and concern 
about this dropout problem, that we can do something 
significant in No Child Left Behind's reauthorization this year 
to deal with it.
    I think this Graduation Promise Act, which you co-sponsored 
with Senator Burr and myself, is a good proposal in that it 
would try to target funds on the exact schools Bob Balfanz 
talked about and many of the other witnesses talked about.
    I do think the other key point is obviously, that we now 
know enough to know how to do something significant. I think 
for a long time it was just anecdotal and there, everyone had 
their story about some school or some principal or some teacher 
that was making a very major difference in keeping students 
engaged, and in school, and making progress. Now I think we 
know enough that, we know enough about where the problem's 
concentrated, as you pointed out--50 percent of the dropouts 
concentrated in 15 percent of the high schools. Bob mentioned 
that statistic as well. That gives us the opportunity to really 
concentrate on solving the problem and we do know how to solve 
the problem. I hope we will take this great opportunity and do 
so this year in the rewrite of No Child Left Behind.
    But again, thank you for letting me be here and thanks for 
the great hearing.
    The Chairman. Good.
    We welcome Senator Brown, who was here at the beginning of 
the hearing. I thank his long-standing interest in education, 
health matters, and we're so grateful that he's been here 
through the course of matter.
    Senator Enzi, would you like to follow, since Jeff has 
spoken for our side. Would you like to be recognized? And then 
we'll resume the order, but going back and forth.
    Senator Enzi. If you want to ask some questions first, that 
would be fine.
    The Chairman. Well, I'd just take one, maybe if I could, 
please.
    We've had very constructive suggestions and ideas.
    If the other members have a particular scheduling time, we 
try to cooperate and deal with those.
    I'm interested in, and some of you have referenced this, 
about, what is our responsibility in this whole process? You 
know, we can listen to the different witnesses and you can hear 
about these responsibilities--the Federal level, State, and 
local communities, I mean, it's going to take a combination--we 
hear what's going on in North Carolina. You've mentioned it's 
had a very proud tradition with a series of Governors going way 
back to Terry Sanford. Going back to even before, there has 
been long-committment to education issues and having been down, 
myself, to the university to listen to things that were 
happening 2 or 3 years ago, it was enormously impressive.
    We've seen in some of these communities and in Chattanooga 
what's been happening there. Governor Wise talks about it at 
the State level. Mr. Podesta talks about the hope that's out 
there. We listened to Bob Balfanz who told us, very eloquently, 
about what keeps happening, particularly in the Baltimore 
school systems.
    Just very quickly and then we'll move on. I'll recognize 
Senator Enzi. If you could apprise me, we've got the 
legislation that's there, but there has to be more. We've 
talked about how the support we're going to give is going to 
help the States to move, and we've got to try and work with the 
teachers to get them up to speed. Could you talk a little bit 
about what you think is a fair responsibility for us here at 
the Federal level to try and, maybe each one will take a quick 
crack at it. Then I'll recognize Senator Enzi.
    Mr. Balfanz. I'll start. I think a prime role is to be the 
steward of the reform for these dropout factories, for lack of 
a better word. Right now, we can ask ourselves, why haven't we 
brought reforms to scale? Why haven't we brought the successful 
things where they need to be? We know some things stand in the 
way.
    Occasionally, not often, it's a lack of will. That's where 
I think No Child Left Behind is important, by saying, ``We're 
not going to let you wait 5, 10 years to reform these schools. 
Every year you're losing kids, you could do better. Do better 
now.''
    Second of all, there's uneven resources and know-how at 
school levels, district levels, State levels. There's a role to 
help even that out, to making sure everyone has access to the 
high-quality technical assistance they need, that it's not the 
luck of the draw, that you happen to have a good 
superintendent, or you happen to live in a progressive State 
that's invested in education. That every kids knows that where 
they go to high school, there's that support mechanism.
    Finally, it's helping to even out the resources, because 
many districts have made, sort of, this Hobbesian choice 
between investing in early education or secondary education. 
What happens is, they put it in the front end, which makes a 
lot of sense, but then when the kid drops out, all those 
resources and investments walk out the door. Those are some of 
the key areas.
    The Chairman. Good. Mr. Wise.
    Mr. Wise. Senator, I would argue that the Federal role can 
continue to be what it is, which is targeted, but recognizing 
it's responding to a truly National compelling need. This is a 
silent Sputnik. When you see the statistics that are laid as 
they are, we're losing, in terms of our international 
competitiveness, 80 percent of current jobs require 
postsecondary.
    What's the Federal role? I would suggest where, since we 
know 71 percent of our eighth graders are reading below grade 
level, the Striving Readers Authorization targeted--Senator 
Murray, thank you very, very much for your leadership in 
introducing that here. Data and research, Senator, best bang 
for the buck to help everyone make decisions, once again, from 
the teacher to the Senator in making sure the States have good 
systems.
    Finally, as Bob has illustrated, as everyone here has, we 
know where these schools are. States don't have the resources 
to go in and do the job completely themselves. They need the 
assistance of the Federal Government, but having said that, 
States must also build the capability, the turn-around teams, 
for instance, the administrators, and so on. There's a 
partnership there, but it can be targeted, it can be laser-
like, but it meets a National need.
    The Chairman. Mr. Habit.
    Mr. Habit. Senator, my response would be a little bit 
different. I agree with what's been said prior to me, that we 
need to be very clear-eyed about the resistance to changes. 
Everybody wants change, no one wants to change. And so, as we 
think about the structures and the intent of legislation to 
affect change within systems, within communities, I think it's 
a matter of looking at ways to accommodate the need, to shift 
those beliefs, and to expose those beliefs, so that they're 
really, quite frankly, is nowhere to hide. I hate to put it in 
those terms, but that's the way it occurs to me at this 
particular moment.
    We see educators who deeply, deeply believe that all 
children can not achieve at high levels. When we take them 
through a very thoughtful process of looking at what happens in 
classrooms, when all children, especially poor children, can do 
high-level academic work? It's quite often a very emotional 
event. The wall falls, and these individuals are very impacted 
by what they see and recognizing that in many ways they've 
cheated their children, thinking they were doing what they knew 
to be the best. Hard working, committed people who don't have 
that first-hand experience. As a result, don't own the process, 
the need to make change in their schools.
    The Chairman. Ms. Varner.
    Ms. Varner. I think the sanctions with No Child Left Behind 
have certainly made States figure out ways to comply, but 
complying is not living up to the intentions of No Child Left 
Behind. I would recommend supporting States to really monitor 
and hold their districts accountable for what matters. And 
we've laid out some of the things that really matter. To 
recognize districts for the growth they're making, even if 
they're not there yet, but mostly to help States, help support 
States so that they're just not complying to avoid the 
sanctions.
    The Chairman. Mr. Podesta.
    Mr. Podesta. Just a couple of words. I think that, I 
mentioned the work we've done with the Chamber, and I think if 
you look across the States, what you see is those States that 
have sustained the effort, make the biggest improvements, from 
Massachusetts to North Carolina. I think one of the roles of 
the Federal Government, much as Bob said, is to try to shepherd 
and use the Federal resource in partnership with State and 
local resources to get them focused on the right set of goals, 
to try to create the right kind of systems, that will keep 
these States moving forward. And again, focusing on the real 
problem of these dropout factories, but giving them the 
incentives and the sustained capacity to align their policy, so 
that we can make real improvements over time.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    Great testimony, great ideas, even some great phrases that 
we'll use and probably credit you with the first time.
    [Laughter.]
    Mr. Habit, I'm particularly interested in your high 
expectations and how you achieve that. In Sheridan, Wyoming we 
have an institute for teachers, for Native Americans, Alaskans, 
and Hawaiians. It's in conjunction with Stanford University and 
it is making some amazing differences for that subgroup. When I 
asked them what the key was, they said, ``High expectations.'' 
There's a little more to it than that. Can you explain a little 
bit about how you develop these high expectations?
    Mr. Habit. We spend a year in planning with a team before 
they launch a new school and the emphasis of that time is to 
explore. What does a classroom look like when children are 
required to take only the high level courses? We, in North 
Carolina, have had a history of tracking children and we have 
some courses that, quite frankly, place little demands on 
children. In these schools, asking teachers to design their 
schools where the default, the default course of study are 
these high-level courses. And then, provide teachers with the 
training for how to support the students to master that high-
level work.
    The experience we have again and again is, as the teachers 
move toward opening their schools, they themselves are 
surprised to see how students stretch. As one teacher said to 
me last week, ``I'm seeing students who are taking physics that 
I never would have thought would be suitable for that 
particular course.''
    Senator Enzi. Thank you.
    Ms. Varner, you've successfully built that sense of high 
expectations in your schools and you've been able to bridge the 
gap of everybody stressing change, but nobody actually wanting 
to change. You know, I really commend you on offering one 
diploma. At the roundtable we had, you mentioned the career 
academies and how that brought relevance to what the kids were 
learning. Could you tell us a little bit more about the career 
academies and ways they may have affected students in every 
grade?
    Ms. Varner. Well, as I said, we were looking to do more 
than just offer vocational education. We weren't sure how we 
should go about it, but one of the smartest things we did was 
we started sitting down with members of our business community. 
And so, at the table we had people from the business community, 
principals, teachers, we had students at the table too, and we 
were talking about the kinds of skills students need for the 
21st Century. As I said, the first thing we realized is we're 
preparing students for jobs we don't even know will exist. And 
so, what are the skills they need for any job?
    With those conversations, we decided that, when we develop 
curriculum, the curriculum for these courses, we need to co-
construct them with our business partners. That's exactly what 
we've done. They've been a part of constructing the 
curriculums, they have been co-teaching--not violating any 
laws--and they have been part of the assessment teams, as part 
of the assessment, we have students take the traditional tests 
and we're happy to say that our students who are learning math, 
for example, through our construction academy are scoring as 
well or better than students who are not in that construction 
academy.
    We are also having them assess those skills we were talking 
about, persistence, curiosity, independence, collaboration. I 
mean, these are some of the skills--entrepreneurial thinking--
these are the skills we're hearing that students will need in 
the 21st century.
    Our students are graduating and competing for jobs in 
America and some of their competitors don't even live here and 
will never have to live here. And so, there's a sense of 
urgency around that. We're continuing to read as much as we 
can, talk as much as we can to our business partners, and to 
make sure that the academies meet the needs of our smartest 
students, as well as the needs of our strugglers who are 
getting there.
    That's another thing that was important to us. We have what 
we call ``Circuit Breakers'' and so we are constantly sitting 
down looking to see who's enrolling in which academy. And if we 
see, for example, that this academy has a disproportionate 
number of minority students or special ed students, or gifted 
students, that's a ``Circuit Breaker'' for us. We need to do 
something, and we need to something with what we're offering. 
That each academy has something to attract students with all 
their talents, with all their interests, with all their 
passions.
    Senator Enzi. As I recall, you also said that you found 
that some students that go into, for example, the construction 
academy wanting to be a carpenter, decide instead that they can 
be the architect.
    Ms. Varner. Right. Right, I forgot I said that last time. 
One of the things we say to students, is the most frustrating 
thing is to be working in a company and realize you're smarter 
than the people you're working for, but you don't have the 
credentials to do that. And so, that's part of our preparation, 
to make sure they can offer any opportunities. If they want to 
be on the ground floor just laying the bricks, I applaud them. 
Some days I wish I were doing that, and didn't have to go home 
and do the kind of thinking that I'm demanded to do. Wherever 
they want to be in any organization, we're preparing them for 
that.
    Senator Enzi. Then what you learned from the career academy 
you applied to the lower grades some way too, by preparing the 
younger students for middle and high school--how does that fit 
in?
    Ms. Varner. What we're doing with our middle schools, 
actually what we did with our, we took our ninth lowest 
performing elementary schools and our Foundations helped us to 
provide some support there, so that they would enter middle 
school with the basics. We, in the networks that we have--
elementary, middle, and high schools meet on a regular basis to 
talk about what's needed at the next level or what kind of 
preparation the students aren't coming with.
    For the academies, our high schools are meeting with our 
middle schools and talking about the kinds of skills we want to 
begin developing as early as middle school, and the kind of 
course work. There was a time where we had students in 
Chattanooga who could go all the way through high school with 
remedial math and graduate with Algebra I as their highest 
math. Now what we're doing to make sure that the students can 
excel in what we're offering in the academies is--we want 
Algebra I in middle school, so that students have 
opportunities, more students are on track for courses like 
calculus.
    Will they all get there? No, they won't, the good thing is 
we don't know who's going to get there so we're pushing 
everybody in that direction.
    Senator Enzi. Thank you for your passion and your 
entrepreneurial skills in school.
    Ms. Varner. Thank you.
    The Chairman. Senator Murray.
    Senator Murray. Mr. Chairman, thank you so much for having 
this hearing.
    I had an opportunity in my office to hear much of your 
testimony and it was very compelling and really excellent, and 
I'm delighted that we are focusing on this middle and high 
school age level. Obviously with No Child Left Behind, a lot of 
focus went into what we were doing in elementary education. 
There's no doubt that it is absolutely critical, but looking at 
the whole picture of what happens when they get to middle 
school and high school is also critical. The dropout rate is 
obviously what we all look at as the factor that says how we're 
doing there. None of us likes where we are with the dropout 
rate.
    I started looking at this a number of years ago to find out 
why kids are dropping out of school and it is very complex. 
There's no simple, single issue we can point to. But it seemed 
to me there were a number of factors that we needed to address 
and that's why I introduced legislation called the Pass Act for 
High School reform and have been working to implement parts of 
that since then.
    One of the things I heard from many students as I went out 
to work on this in high schools was, ``Well, no one ever told 
me in seventh grade that I needed 4 years of math to get into 
college. No one ever talked to me about the fact that I needed 
a foreign language.'' Kids in middle school often don't have a 
strong family support. They may be the first person to look at 
graduating. They may not have anybody in their own community 
that is talking to them about what they need. Part of what I 
put into this was academic counselors, to begin to focus our 
kids in middle school on making sure they have a plan.
    Washington State has a program called Navigation 101 that 
really helps parents and students set goals to map their 
progress and know what they need to do. I wanted to ask some of 
you today, how you think we might be doing better if we started 
reaching down into the middle schools to help our kids plan for 
what they needed to do, not just to graduate, but to get into 
our colleges?
    Maybe, Governor Wise, if we could start with you?
    Mr. Wise. Sure. Middle schools are a vital part of it and 
your Pass Act, led the way, I think, to showing us a lot of it 
through the counseling, through the recognition of math and 
literacy coaches, through the calculation of graduation rates, 
as well. Bob Balfanz can speak, and I won't speak for him, 
about the indicators that are already in middle school for 
whether or not you're going to succeed in high school.
    What I would urge, though, is that, as you have in your 
Pass Act, as you have in Striving Readers, that you continue, 
as well, to recognize the importance of literacy. That we have, 
essentially at the Federal level and most States, stopped doing 
literacy, reading instruction by the fourth grade. That's when 
children are learning to read in middle, beginning with middle 
school and high school, it switches to, they need to read to 
learn and they don't have the skills, as Edna Varner so well 
described. That's critical.
    Now, middle schools are a vital part of it, and once again, 
the chart, the air graph I drew, shows that the Federal 
contribution and effort in middle schools, it drops off sharply 
after about the fifth grade.
    Senator Murray. That's correct. The other part of my 
legislation really looks at the fact that once a student gets 
into middle and high school there is no targeted teacher who's 
there to help them with learning how to read or how to do math. 
We sort of get them out of sixth grade and say, ``You're on 
your own,'' and there's no teacher teaching reading skills.
    Mr. Wise. The common elements are here and, Senator Burr, 
you attended and spoke at a function with Senator Bingaman 
about 6 months ago, where MDRC did an evaluation of programs 
such as Talent Development and others. It's the common 
elements, and one of them is the personalization. A personal 
graduation plan starting at least in the seventh grade for 
every student, that recognizes their strengths and their 
challenges and maximizes them, to put them on a pathway to 
success. Also having a direct relationship with an adult in the 
building. What ninth grader raises his or her hand to say, ``I 
can't read very well, help me out.'' That's why we need to have 
a restructuring, as well as additional resources.
    Senator Murray. Other comments from you?
    Mr. Podesta. I would just add that the sorting process, as 
you alluded to, a center is well established by middle school 
and middle school counselors are making important decisions for 
and with young people. Training and supporting counselors that 
think differently about academic rigor is critically important.
    Senator Murray. Yes, and that's one of the things I've 
found, is that students themselves identified counselors as the 
person you go to if you have a personal problem, not as someone 
you would go to who would help you plan your academic career. 
That's why, in my bill, I called them academic counselors to 
change the focus.
    Ms. Varner. Remember also, that in many schools a guidance 
counselor has 500 students to see. One of the things we're 
trying to do is have our guidance counselors work with teachers 
who have small advisory groups of about 15. Those teachers 
review the student's instructional plan. As students move on to 
high school, they meet with other advisors. Because guidance 
counselors can't do it all, but guidance counselors have been 
very helpful in helping other teachers build the skills to keep 
up with that plan, to revise it each year with parents, and 
students, and the school, and the child's records there.
    Senator Murray. I think it's important to point out, that 
doesn't preclude parents. Guidance counselors are there to give 
support.
    Ms. Varner. Absolutely.
    Senator Murray. Correct? It does take resources to provide 
those counselors.
    Ms. Varner. Absolutely.
    Mr. Podesta. I'd just like to add one thing on the middle 
grades connection and that is, in many ways we keep forgetting 
about middle schools. This is when students independently 
decide to engage or disengage from schooling. You do well in 
elementary if you just like to go to school, and you like kids, 
and you're good at follow the leader. You do what they tell 
you, you do fine. In the middle grades, they start asking you 
to think for yourself. I mean, the mathematics gets more 
difficult, you have to comprehend what you're reading, and 
answer questions. If no one builds that bridge for you, you 
start feeling lost, and you start feeling, maybe this isn't for 
me. You start disengaging.
    On the opposite hand, if somebody reaches out to you, if a 
teacher grabs you and pulls you along, you become engaged and 
excited about schooling. We sort of just ignore that, and we 
sort of leave it up to the kids, believe it or not. And 
especially, in high poverty environments, they disengage in 
huge numbers. Once they disengage, it's very hard to get them 
back.
    Senator Murray. I would agree. Well, I think we have a lot 
of work that we can move toward.
    We've got a lot of good research out there and I hope, Mr. 
Chairman, we can really focus on this area and really work to 
make sure that all kids can succeed. Thank you.
    The Chairman. Senator Isakson, is giving me the long and 
distant look. Senator Isakson, you're recognized.
    Senator Isakson. I have a staffer back there at the door, 
who's telling me I've got to leave.
    The Chairman. OK.
    Senator Isakson. I want to thank my neighbor from North 
Carolina because I wanted to make two points. The Hamilton 
County story is a great story. That's a neighboring county to 
my State of Georgia, just on the other side of the line from 
Dalton and Lookout Mountain. When I chaired the State Board of 
Education, I was, from time to time, in some groups that shared 
information. If you look at those growth charts and the 
improvement they've made, I mean, they've made substantial 
improvements and it's because of two things. One, is 
intervention, and the other's innovation. So I just wanted to 
make a statement.
    One, I want to help you with the bill. The biggest mistake 
we make is by trying to think that at the high school level 
that there's a cookie-cutter solution to what is a complicated 
problem. Mr. Podesta made the statement that 70 percent of the 
kids graduate, 30 percent don't.
    I'll tell you another interesting number. I was with the 
head of the Army, recruiting for the last 3 years. General Van 
Antwerp, who's now been nominated to head the Corps, he's been 
in charge of Army recruiting for the last 3 years. Seventy 
percent of the eligible 18- to 24-year-olds to volunteer for 
the military can't get in.
    They can't get in because of two reasons. One, is half of 
them haven't graduated from high school or, this is that 30 
percent, and the other is obesity. That tells you what a huge 
problem we have in this country, in terms of the effects of the 
dropout rate. Not just on the lives of those children as they 
hopefully go to some post secondary work, but for our own 
country's ability to attract, in a voluntary service, the 
people we need for our military.
    I commend you on what you've done. I have one suggestion. 
One of the things we never do up here enough, is create within 
our legislation, a best practices center for the consolidation 
of the information so when the grants go out and somebody like 
Hamilton County innovates a system that works and there are 
other Hamilton Counties in the country but every county's 
different. Our Department of Education, should be a best 
practices center where--through the web we can post and, 
principles and systems can go on that site and say, ``Hey, my 
county's like Hamilton County,'' and this worked in Hamilton 
County and it can be a catalyst for reform.
    Now, I am making a speech and not asking a question. I 
apologize. This is a great bill. I want to help you with it, 
and I thank my colleague from North Carolina for letting me 
interrupt.
    Senator Murray. It sounds like we need to put physical 
education back into our high schools, too.
    Senator Isakson. Oh, absolutely, I'm all for that too, 
especially because of the obesity.
    Thank you, Mr. Chairman.
    The Chairman. Very good. Thanks very much.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    I want to thank the entire panel for their willingness to 
come and to share their knowledge, and I want to particularly 
thank John Podesta, who has a tremendous amount of valuable 
information and, John, we appreciate that.
    To my good friend, Governor Wise--Mr. Chairman, what you 
don't know about Governor Wise is he has higher aspirations 
than being Governor of West Virginia. He wants to drive for 
NASCAR.
    [Laughter.]
    Mr. Wise. We've been there, Senator.
    Senator Burr. It is a very scary thing that I envision, but 
that would be true for me, as well.
    Bob, it's great to see you and an old colleague, Tony 
Habit, to have somebody here who can talk about some of the 
things that we're actually getting right in North Carolina. The 
fact that we're not arguing about process, we're focused on 
outcome. I would tell you that that's at the heart of 
everything from what Bob Balfanz said at that end and John 
Podesta said at this end.
    There's a measurement tool. It's what is the outcome of our 
educational system. I think the thing that shocks me the most 
about the high school graduation rate is, who in the hell is 
outraged? Why is the Nation not screaming about this?
    I, you know, Mr. Chairman, I want to make an observation. I 
want to thank you because this is a No Child Left Behind 
reauthorization hearing, and that we've spent much time talking 
about graduation rates. I think we make a real mistake when we 
take up NCLB in a vacuum of K-8, because, really the buy-in 
when you talk about K-8, is on this side you have parents of 
people in K-8 and on this side you have a lot of teachers who 
are finding every reason not to like No Child Left Behind. 
There is your audience.
    When all of a sudden you go to graduation, your audience 
becomes every parent in education, every parent who will have 
children in education, every employer in the country who's 
relying on that funnel for its next generation of the 
workforce. All of a sudden you have a nation outraged about the 
graduation rate. I truly think this is the start of something 
really good. Yes, we've got some good bills, some creative 
approaches. Is it the silver bullet? There isn't one.
    I want to concentrate on a couple of specific areas and ask 
those who would like to comment, to comment on those. You know, 
I've had the opportunity to go in some Gates High School 
classrooms. I've seen the investment, I've seen the transition 
that happens in a year. I've gone to a high school that, to 
accomplish the part that wanted to go into Gates and the part 
that wanted to stay in traditional Gates, in Camden County. The 
Gates kids, for this year's ninth grade and next year's ninth 
and tenth grade are actually in trailers. Now, Governor, most 
Governors say kids can't learn in trailers. Both of those 
classrooms are over 20 kids, and most Governors say they can't 
learn if there are that many kids. They have already broken the 
mold in 1 year. They've got kids whose attendance went up, 
whose involvement went up, whose excitement went up about 
education. And it's, in fact, that excitement that will keep 
them in when the going gets tough. What do they do? They've 
approached things in a different fashion than what they were 
used to.
    Gates is one example, but I think the unique thing here 
that I see is that we've got two private citizens, Bill and 
Melinda Gates, who are willing to invest their money in the 
reform of high school education in this country.
    My first question is this, and I want to pose this to John 
Podesta, and anybody else. If we came up with a Federal fund 
that is available to match the private sector dollars that 
funnel to reform of a high school, but those dollars don't go 
just because somebody says they're going to reform. They don't 
go just because they wrote a good grant. They go because they 
have convinced private entities to invest in the reform. That's 
Bill and Melinda Gates, that's any specific instance where you 
can find where there's a private investment. That we would turn 
around as a Federal Government, we would match the investment 
in that school. What do you think of that approach?
    Mr. Podesta. Well, Senator, as I said in my oral 
presentation, I love the work that the Gates Foundation is 
doing, but there's also an important Federal role. I think that 
you see across the country now, for exactly the reasons that 
you mentioned, employers being interested in schools, adopting 
schools, moving money into schools, etc. You're onto something, 
in the sense, that it shows that people who can, in the 
marketplace, attract money because there's innovation that, 
that's an important, one important factor.
    The heart of the reform effort really has to be aimed at 
understanding what's working, trying to, you know--there's not 
going to be one cookie-cutter solution that fits all, but we 
can find effective models, research them, try and replicate 
them. It goes along with what Senator Isakson said--find those 
models that work and try to replicate them across the country. 
Some of that will involve foundation support, some of it might 
involve business support, some of it should involve, I think, 
Federal support. Obviously, the bulk of the money still is 
going to come from State and local communities. I think those 
things--viewing this, you know, it's maybe an overused word, 
but viewing this as a partnership is an important concept. 
That's what we should push for.
    Senator Burr. Well, we do an awful job up here of 
disseminating success, irregardless. It's not limited to 
education.
    Mr. Podesta. If I could, one more word. Senator Kennedy, at 
the beginning, raised the Federal research money. If you think 
about it, there is a lot of money being spent, but if you think 
of the challenge the country faces, and we think about the 
research dollars that are spent on technology, on medical 
research, etc.
    Then that number seems rather small by comparison, given 
the challenge of reforming the educational system. If we're 
going to spend research money, it can't be just kind of one 
off, it's got to be targeted on what real improvements we need 
that are going to begin to reform how we deal with the--
literacy has been mentioned in this program, how much we are 
going, how we're going to deal with low performance schools.
    When I was in the White House, the President's Committee on 
Science and Technology actually focused on this question and 
found a lot of the education research that was being done 
wasn't double-blind, didn't read the results, wasn't 
disseminated. A lot of research dollars were going out, but 
there was no strategic focus to it and there was no strategic 
focus to improving schools across the board. And that, I think, 
is really what needs to happen with the dollars that are being 
spent.
    Senator Burr. Let me say, in the context that I asked that 
question, I'm not talking about substituting this for the money 
that's currently going in. I'm talking about--can Federal 
dollars leverage private dollars?
    If the answer is yes--and I think it is--then the question 
is, who determines a genuine commitment to change and reform? 
We traditionally have not done that well. Private entities, 
corporations, foundations go through a rather extensive review 
of whether somebody's serious about really changing something.
    It seems like if you're talking about, over and above the 
traditional partnerships that we have with Federal dollars and 
State and local dollars, if you talk about opening a new door, 
then you open a door that allows those private sources to 
identify real genuine commitment, and use Federal dollars to 
leverage, whether it's business, a foundation, or individual 
support of those efforts.
    Mr. Podesta. Actually, Senator, in some ways it is a mutual 
leveraging going on. Because, I think, and let me just say as a 
disclaimer, my organization is also a Gates grantee, but I 
believe that the Gates Foundation is helping to leverage local, 
State, and Federal dollars. Because they have jumpstarted the 
high school by, in the last 10 years, they've probably moved it 
30 years because of the number of projects they've started that 
we can get best practices from, that we see what works, what 
doesn't work. And so, now they've created interest at various 
levels of Government.
    By the same token, come back around where you are, and now 
maybe we can leverage each other to improve best practices. I 
can tell you, no State has money for the kind of research 
that's necessary to do best practices. And so, to the extent 
that this committee can get the Department, work with the U.S. 
Department of Education to make it a true repository of good 
research and best practices that every school district from 
small, 5,000 people in Gilmore County, all the way to New York 
City, can access to find what works for them. That would be a 
great assistance.
    Senator Burr. It shocks me when you look at the national 
statistics, 70 percent graduation rate on time, 30 percent are 
not making it, 32 percent in North Carolina. Yet, in some of 
the underlying statistics, 88 percent of those are not 
academically lost.
    When I asked Bill Gates if our expectations were too low, 
his answer to the HELP Committee was, ``My fear is we lose more 
gifted children than we're losing academically challenged 
kids.'' Bob, I think you stated it well. Those of us who do 
look at the jobs that are being created in West Virginia, in 
North Carolina, around this country, realize very quickly--
without a high school diploma, you may fill out an application, 
but you will never get invited for an interview. The likelihood 
is you won't get picked in the interview if, in fact, you 
haven't got some additional higher education.
    I can't think of a better investment in higher education 
than to begin to fix the high school graduation rate. Because 
it puts more kids in the queue, not only to be able to consider 
it, but to do it in a way that the value of it is big to them.
    Tony, let me turn to you for just 1 second. I thank the 
chairman for his indulgence on time.
    You stated extremely well that under the New Schools 
Project, that when you engage a new high school in this 
transition, that this is a secure program. It's 1 year of 
planning and 5 years of implementation. I think we all 
understand that we probably don't focus enough on the 1-year 
planning and we may shorten the implementation over too short a 
period of time. Let me ask you what happens at the end of that 
6 years?
    Mr. Habit. What happens at the end of the 6 years? In terms 
of, how is that school different than the conventional school?
    Senator Burr. In terms of all the things that you brought 
to the table to accomplish that.
    Mr. Habit. OK.
    Senator Burr. Additional State money, additional local 
money, additional Federal money, incentives for teachers, 
whatever it is. As Johnny Isakson said, ``Every school's a 
little bit different, so every configuration's going to be a 
little bit different.'' Does that all go away? Is it no longer 
needed now, because you've made this transition? The question 
is, at what point do we consider a school a success and we move 
on to try to do more and more with others?
    Mr. Habit. Certainly, that's an excellent question, 
Senator. I think that, first of all there are many different 
approaches to redesigning schools and thinking of schools 
differently, and--to your earlier comment about an innovation 
fund, the notion of being clear about what are those designs 
which get markedly different results is an important process in 
looking at that.
    What we would expect to see in a school that is funded with 
external resources and the external capacity of our 
organization and our school development team during that 6-year 
process, we plan for sustainability from the very beginning, so 
the resources that are brought to our team are committed 
primarily to teacher training and development and coaching 
services and the training and development of that principal. 
Every single action we take and every tool we develop is vested 
in the idea of sustainability beyond our relationship with that 
school.
    We would expect, for example, that the State of North 
Carolina, their funding would sustain some things we've 
initiated in that school through the design process. But at the 
tail end of that, let me just mention some of the, kind of, key 
elements that should be a part of every single school.
    Every school, first of all, should have a focus. It doesn't 
matter, necessarily, what that focus is. It could be 
biotechnology, it could be entrepreneurship, as we heard from 
Edna, it could be many different areas, but that focus gives 
the teachers a way to connect the curriculum and to work 
together as peers. If they're going to have that kind of 
connection, what happens is, they begin to establish norms in 
their school for what good teaching means. That focus continues 
beyond our relationship.
    They should have a relationship with a college or 
university so that they have a plan within that school for, 
``How am I going to be sure my kids get 12 hours, 15 hours of 
college credit before they walk across that stage to get their 
high school diploma? ''
    They should have, in that school, created deeper 
partnerships with their community and institutions in their 
community. I know you visited Camden recently, not far from 
Camden in Dare County, we're creating a school of maritime 
studies. And to use that example in that school, they're 
connecting with the research being conducted in Coastal North 
Carolina and the Maritime Museum and other sorts of 
institutions. Changing relationships with universities, with 
the private sector, with resources.
    The last two things that I would mention is that, teaching 
should look very different in these schools, in every school. 
When we talked today, we're talking so much about dropouts and 
children who are at risk of failure. Your observation about Mr. 
Gates and what he shared earlier, kind of rings true for us. We 
know that our most advanced students need a different kind of 
teaching. They need teaching that is very active, that's 
engaging, that is applying content to real world problems and 
needs, so that when they leave high school to go into college 
and go into the workforce, they have developed the judgment, 
the motivation, the kinds of soft skills Edna talked about in 
her comments a few moments ago. Teaching should look really 
different.
    Then, the last thing that I would mention is that, these 
schools would have a system of student support, a design to, 
into that campus. We will never, as a country, be able to 
afford enough counselors and social workers to provide for the 
emotional and affective needs of children. In these schools, 
teachers step into that role and they know they're there to 
teach and monitor teaching, but they're also there to grow 
young people into fully formed adults, prepared for a future 
beyond that high school.
    Senator Burr. Thank you.
    Mr. Chairman, I think all of our witnesses today had a 
common thread relative to college preparation. That was the 
ability for students to get college-ready courses in high 
school. I think one of the biggest challenges that we have is, 
how do you make sure that rural America has the teachers that 
it needs to teach AP courses. At a time where it's pretty tough 
for rural America to attract teachers that meet the 
qualifications, much more so for the AP side. I don't ask that 
as a question. Mr. Chairman has been awfully kind with the 
time.
    The Chairman. Thank you. Thanks very much. Maybe we've 
covered this, but just to make it somewhat clearer to me, about 
the difference between the middle schools and the high schools. 
Most of the lessons which you've talked about here, probably, 
are generally applicable in terms of a seamless web. Would you 
make a distinction? Or do you see what we're doing up in the 
high school level all starts in the middle school and carries 
on through? Maybe you could just comment.
    Mr. Balfanz. I think there's, actually, some very important 
commonalities, that at both levels you need to create, sort of, 
a strong bond between a subset of teachers and subset of 
students, so students know there's a subset of teachers that 
really care about them. Teachers know that this is, these are 
my 75 students and we--with my colleagues, not on my own--have 
got to do what it takes to make them succeed. That creates a 
very tight relationship at both the teacher and student level.
    You need that at both levels because this is when students 
are disengaging. You need a force to draw them back. What draws 
them to school is their relationship with their teachers. They 
come to school for their teachers, not because they're taking 
Spanish. You have to make sure you enable the organization of 
the school to give teachers time to do that.
    Second of all, you have to have these high standards, but 
you have to have the intensive extra help needed to make it 
real for everyone. It's fine enough to say, ``Everyone will 
learn algebra in eighth grade,'' but many of us in this room 
struggled with algebra in eighth, ninth, or tenth grade. It's 
just not saying, ``We'll offer it to you, it's there.'' It 
often means giving extra time, it often means having extra help 
labs, if often means, we found our high school, but I think 
this works for middle school, that for certain kids it's almost 
social-emotional issues, it's a fear of failure. To solve that 
you have to know their story. To know their story, maybe for 
that subset of kids, that's just the 10 kids you need a small 
class size for, not everybody.
    Then finally, I think at common levels, is you have to 
realize we are asking teachers and administrators to do more 
than just teach a good lesson. You have to have support systems 
built up for them.
    Also, I think there's this idea that we've found in both 
the middle and high school level, that there's key indicators 
you have to pay attention to. When a student fails sixth grade, 
we found, in a high poverty environment, they do not recover, 
absent intervention. If a student is starting to miss a month 
of school in sixth grade, they will not miss less school in the 
future unless you do something. I think those are some of the 
common----
    The Chairman. Good.
    Mr. Balfanz [continuing]. Elements we find.
    Mr. Podesta. Senator, it is a seamless web, and if I could 
just, the analogy I've came to grips with as I got into this, 
is the importance of building a strong foundation, which is 
what we do pre-K to in the elementary grades. I'm not a 
carpenter and you can build a strong foundation for me, I can't 
finish the house on my own.
    The recognition has to be, that as we build that critically 
strong foundation, early childhood development for instance, 
and then the early grades and reading initiatives and so on, we 
have to recognize that in each stage of a child's life, they 
have different needs, different learning mechanisms, and that 
we're going to have to keep building that house for them. Which 
is why, we can't simply say, ``We stop reading in fourth grade, 
we stop these programs in fourth grade, if they, by fifth grade 
they ought to have it and now they're on their way.''
    Clearly, early childhood initiatives provide the foundation 
and we have demonstrated results, but what we're also 
demonstrating is, if you simply take children that have had a 
good early childhood experience and then put them into 
dysfunctional middle and high schools, their success is not 
going to be anywhere near what it ought to be.
    The Chairman. Mr. Habit, is there anything more that you'd 
like to add?
    Mr. Habit. No, sir.
    The Chairman. Good. Then that went well. Well, we want to 
thank you all for your very helpful comments and 
recommendations. I think what we're going to do is, as we draft 
the legislation, we're going to call on you to give us your 
reactions and responses to it and hopefully we'll be worthy of 
the kind of challenges you've put out there. It's been 
enormously helpful and valuable. We're very grateful to all of 
you.
    Mr. Balfanz. Thank you.
    Mr. Wise. Thank you.
    Mr. Habit. Thank you, sir.
    The Chairman. The committee stands in recess.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

      Prepared Statement of the National Middle School Association
    National Middle School Association, which represents more than 
180,000 educators through individual and institutional memberships, is 
committed to making middle grades the pride of the American education 
system. As an organization, NMSA has established longstanding 
partnerships with national, State, and local groups interested in 
improving the lives of young people. But our efforts must be matched 
with financial and policy support from all levels of government. We 
believe that only by working together can we achieve the ambitious 
agenda to provide all young adolescents with a quality education that 
develops their skills and talents to the fullest extent.
    Thoroughly preparing all American students to succeed in a 
demanding and evolving global economy makes the transformation of 
middle level education an imperative. Thriving in the 21st century 
requires more than a basic understanding of reading, writing, and 
mathematics. It requires the ability to apply sophisticated skills in a 
variety of settings, solve complex problems individually and 
collectively, and learn throughout a lifetime. While effective middle 
level schools provide this strong foundation for young adolescents, 
most schools serving 10- to 15-year-olds have not implemented the full 
range of structures and supports that more than 30 years of research 
and practice have shown to work with this age group.
    Unless we take action now to change these patterns, millions of 
young adolescents will be unable to compete in the world they will 
encounter in high school and beyond. For example, while middle level 
students steadily improved their mathematics performance on the 
National Assessment of Educational Progress (NAEP) in the past decade, 
only 29 percent of U.S. eighth graders demonstrated competence with 
challenging subject matter in both reading and math, and one-fifth of 
those students scored below the basic level. In addition, while U.S. 
eighth graders improved their math and science scores on international 
assessments from 1995 to 2003, they still compared poorly to students 
from other nations. One-fourth of eighth graders lack fundamental 
reading skills, according to NAEP. Eighty percent of U.S. eighth 
graders say they plan to obtain a bachelor's degree or higher, but many 
do not have access to rigorous classes that provide the stepping stones 
to higher education. Even when poorly prepared students gain admission 
to college, they typically need so much remediation that they fail to 
progress.
    The national movement to ``leave no child behind'' has largely 
bypassed students in the middle. Squeezed between the competing 
interests of elementary and secondary education, middle level students 
continue to fight for attention, respect, and financial equity. Under 
the No Child Left Behind Act (NCLB), 57 percent of the students tested 
annually are in grades five through eight. Yet only about 15 percent of 
all title I funds, the program that drives NCLB, are allocated to both 
middle and high schools. Promising Federal programs, such as GEAR UP 
and TRIO, which help disadvantaged middle level students prepare for 
college, reach only 10 percent to 20 percent of those who are eligible 
for assistance (see Addendum #1).
    Successfully preparing the next generation of Americans means 
significantly improving support for middle level schools. The middle 
grades represent the most critical period in education because so many 
decisions made during this stage determine whether children will reach 
their full potential. Sixth graders who do not attend school regularly, 
exhibit poor behavior, or fail math or English are very likely to drop 
out before graduation from high school--many as early as ninth grade. 
Only 1 in 10 of these students graduate on time and one in five 
graduate in 5 years. By the eighth grade, many students have decided 
whether they will drop out or graduate from high school, whether they 
will take algebra and other ``gatekeeper'' courses that predict success 
in college, and whether they will engage in risky behaviors such as 
drug use and unprotected sex.
    Although we fully support legislation to turn around failing high 
schools, we urge you to consider turning around the failing middle 
schools that feed into the 2,000 ``dropout factories'' identified in 
the Graduation Promise Act. Given that we now know the warning 
indicators that can identify [as early as sixth grade] students that 
need more support and academic interventions, it is imperative that we 
provide the necessary support and interventions immediately. It makes 
no sense to wait until ninth grade to make sure that students stay in 
school.
    The reauthorization of the No Child Left Behind Act presents an 
excellent opportunity to establish national middle level policy and 
help raise student achievement in the middle grades. While we fully 
agree with the basic goal of NCLB, that every child in our Nation 
deserves an excellent education that enables him or her to be 
successful in college and the workforce, we do not believe the 
legislation fully addresses the needs of students in grades five 
through eight.
    Federal policy affects all aspects of middle level education and 
can strengthen or hinder State and local efforts to improve schools. We 
urge Congress and the Administration to consider the following 
recommendations to strengthen the reauthorization of NCLB and create a 
national middle level education policy necessary to help young 
adolescents achieve their fullest potential.
    The following eight recommendations are supported by NMSA as part 
of a coalition of national organizations committed to improving middle 
level education. The first five recommendations would establish a 
national middle level education policy to help all students succeed. 
The next three recommendations are necessary to improve student 
achievement across grades K-12 and are critical in supporting student 
success at the middle level.
    A National Middle Level Education Policy Supported by the Following 
Organizations: ACT; Academy for Educational Development; Alliance for 
Excellent Education; The College Board; Education Development Center, 
Inc.; International Reading Association; Learning Disabilities 
Association of America; National Association of Secondary School 
Principals; National Council of Teachers of English; National Forum to 
Accelerate Middle-Grades Reform; National Middle School Association.
    1. Authorize and expand Striving Readers as part of NCLB and fund 
it at $200 million in the first year and increasing to $1 billion over 
a period of 5 years. The Striving Readers Act (S. 958), new legislation 
to help ensure that older students who are struggling can read and 
write at grade level, will give students the literacy interventions 
they need to succeed in school and graduate from high school with a 
meaningful diploma. Every State would receive a grant to help teachers 
in the content areas improve reading and writing achievement across the 
curriculum in grades 4 through 12.

    <bullet> As educators and policymakers examine the data from their 
State and district reading assessments, they are concerned that eighth 
grade reading scores remain flat, and twelfth graders on average have 
shown no reading improvement in the last 30 years. ACT reports that 
over 50 percent of high school graduates in 2005 did not have the 
reading skills they needed to succeed in college. Middle school 
students who are not on target in reading are significantly more likely 
not to be on target in English, Math, and Science. In fact, ACT's 
latest research suggests that if students do not achieve a minimum 
level of academic preparation by middle school, high school may be too 
late to make up for these deficits.
    <bullet> Closing the achievement gap and ensuring that every 
student is proficient in reading requires an intense focus on literacy 
teaching and learning in the middle grades.
    <bullet> Struggling readers exist in every school. In our inner 
cities and rural poor areas, it is not uncommon to find 50 percent of 
our eighth graders reading at ``below basic'' levels. Scaling up 
effective literacy instruction and support for struggling students in 
the middle grades requires a significant investment beyond the funding 
currently available under title I.
    <bullet> Federal reading policy essentially stops after third 
grade. Students need more intensive reading curricula and support for 
the remainder of their primary and secondary education in order to 
achieve academically and in a postsecondary world.

    2. Include the ``Math Now'' proposal included in the Senate version 
of the America Competes bill (S. 761, Title II, Section 3201). This 
necessary and important initiative would help strengthen teacher 
preparation and professional development in math in the elementary and 
middle grades.

    <bullet> Although eighth grade math scores have improved, we are 
still far from preparing all students to take algebra by the end of 
eighth grade so they can go on to higher level math courses in high 
school. In fact, test data show the middle grades as the point when 
average student achievement begins to lag. For example, the national 
average mathematics score at grade four increased by 3 points from 2003 
to 2005. But the score at grade eight showed only a 1-point increase in 
that same time period.
    <bullet> The National Academy of Sciences has pointed out that 
``students who choose not to or are unable to finish Algebra I before 
the ninth grade--which is needed for them to proceed in high school to 
geometry, Algebra II, trigonometry, and pre-calculus--effectively shut 
themselves out of careers in the sciences.''
    <bullet> A full 86 percent of math and science teachers in the 
Nation's highest minority schools are teaching out of field.

    3. Amend the definition of Highly Qualified Teacher. Highly 
qualified middle level teachers should demonstrate that they are 
subject-matter competent by obtaining either a major or its equivalent 
in one or more subjects that they teach or by passing a State-approved 
competency measure or assessment, as well as demonstrate a solid 
understanding of pedagogy for young adolescents.

    <bullet> Ensuring that all young adolescents have highly qualified 
teachers and administrators is an essential first step in moving toward 
the ultimate goal of ``highly effective'' teachers in every classroom 
supported by ``highly effective'' school leaders.
    <bullet> If we expect all middle level students to succeed, we must 
eliminate the disparities in their education starting with the quality 
of the teachers and administrators hired to work with them. The No 
Child Left Behind Act of 2001 left out a specific definition of a 
highly qualified teacher at the middle level and did not speak to the 
qualifications of school leaders.
    <bullet> Although an increasing number of States offer some type of 
middle level certification or endorsement, fewer than half require 
specialized, middle level preparation before teachers can work in the 
middle grades. Only seven States insist that middle level 
administrators know and use research-based leadership and instructional 
practices to increase the academic performance and healthy development 
of young adolescents.
    <bullet> According to The College Board, 40 percent of middle 
school students in the physical sciences (including chemistry, biology 
and physics) are taught by unqualified teachers, with the proportion in 
biology approaching 30 percent. In math, these numbers exceed 20 
percent.
    <bullet> New teachers should be required to obtain a middle level 
certification and have a major in their subject area as the first step 
to becoming a highly qualified and highly effective teacher. Funding 
should be provided so teachers already in the workforce can earn a 
middle level certification within 5 years through recertification 
course work and/or personalized professional development growth plans 
that include work in both content knowledge and pedagogy.
    <bullet> Furthermore, we recommend strengthening and expanding the 
incentives for highly qualified administrators and teachers to lead 
middle level reforms in our highest-need schools and school districts.

    4. Provide adequate funding and support for ongoing, State-
administered technical assistance programs for all middle level schools 
identified as ``in need of improvement.'' Funding should be allocated 
for the development and implementation of school improvement plans.

    <bullet> According to the Center on Education Policy, about 10 
percent of all schools (a majority of which are middle schools) have 
been labeled in need of improvement. In the last 2 school years, 
however, nearly two-thirds of the States reported receiving 
insufficient Federal funds to carry out the NCLB-imposed duty of 
assisting schools identified for improvement.
    <bullet> Technical assistance to help low-performing schools is not 
widely available, leaving many middle level schools without support.
    <bullet> Funding to implement school improvement plans is critical. 
For these plans to succeed, they need the financial resources to 
provide supports such as school improvement facilitators, adolescent 
literacy programs, professional development, extended learning time and 
personal graduation plans.

    5. Promote research and dissemination on effective policies and 
practices in middle grades education. While there is a growing body of 
research on middle grades education, the knowledge base is still 
relatively small and not well understood. To ensure that educators make 
wise decisions based on the latest scientific evidence, we recommend 
that Congress do the following:

    <bullet> Encourage IES and other educational research agencies to 
develop a strand of research designed to enhance the performance of 
middle grades schools and students, including those who are most at 
risk of educational failure. Research could target specific issues such 
as effective practices in math, science and literacy; school-
improvement programs; and strategies for closing the achievement gap.
    <bullet> Encourage the Department of Education (through IES or 
NCES) to develop a national database at the middle level that will 
enable researchers to identify school and classroom factors that 
facilitate or impede student achievement.
    <bullet> Establish a National Center on Middle Grades Education, 
modeled after the National High School Center, that can synthesize and 
disseminate the available research on effective middle grades policies 
and practices.

    K-12 Recommendations Necessary to Support a National Middle Level 
Education Policy.

    <bullet> States should be required to provide ongoing, job-embedded 
professional development for principals and teachers that support 
school-based collaborative problem-solving and decision-making 
activities to improve student achievement. Due to current national 
needs, specific professional development in math, science, literacy, 
formative and summative assessment practices, and English language 
learning must be ongoing, especially in our highest need schools.

        <bullet>  The traditional ``one-size-fits-all'' method of 
        advancing educators' skills by offering professional 
        development to all the teachers in a school or school district 
        without regard to individual needs is both inappropriate and 
        ineffective. Generic staff development does not improve 
        instruction and learning. We must ensure that all middle grades 
        teachers, both new and experienced, participate in quality 
        professional development that includes deep understanding of 
        their subject areas and sound instructional methods to teach 
        young adolescent learners.
        <bullet>  Data-informed instruction is essential for high 
        achievement. Research indicates that formative assessment is 
        one of the strongest interventions schools can make to raise 
        test scores for all students with the greatest gains occurring 
        among the lowest performing students. Delivering this staff 
        development requires a wide range of professional development 
        opportunities.
        <bullet>  In today's achievement-focused atmosphere, it is 
        imperative that principals be effective instructional leaders 
        and that they know how to collaborate with staff members to 
        establish the school's learning goals.

    <bullet> Because some States do not have data management systems in 
place to track each student's progress, the Federal Government must 
provide incentives and guidance to ensure that all States develop 
effective procedures for collecting and analyzing such information. 
Further, improving the quality of assessments so that they are both 
valid for accountability purposes as well as a tool for improving 
instruction is critical for the success of America's students.

        <bullet>  The most valuable achievement measures provide 
        information about each student's development over time. Called 
        the ``growth model,'' this method uses individual assessments 
        to determine adequate yearly progress and should become the 
        standard for determining progress in middle level schools.
        <bullet>  These State longitudinal data systems are a 
        prerequisite for implementation of ``growth models'' and are a 
        more accurate measure of school quality because they follow 
        students' academic progress over time.
        <bullet>  Once-a-year, norm-referenced tests that focus on 
        groups of students for school accountability purposes do little 
        to help teachers diagnose specific learning needs and design 
        appropriate interventions for individual students. Although 
        such assessments of learning are important, they must not be 
        the only criteria by which we evaluate students' achievement. 
        Formative assessments must be put in place to help teachers 
        differentiate and improve instruction.

    <bullet> Provide the necessary resources and support for students 
who need to accelerate their academic learning through practices that 
include extended instructional time during the regular school day, an 
extended school day, Saturday and summer classes, and after-school 
programs with highly qualified and knowledgeable educators.

        <bullet>  Educational standards for our youth in America have 
        increased substantially over the last two decades, yet we have 
        not provided students with the additional time or support they 
        need to achieve those higher standards.
        <bullet>  Children in the United States have summers without 
        school for up to 13 weeks, while most industrialized countries 
        average only 7 weeks off. Shorter periods of time off can 
        prevent learning loss by students, particularly those who do 
        not have access to summer enrichment activities provided by 
        families.
        <bullet>  Extra learning time provides an opportunity to 
        reinforce the relevance of the subjects students are studying 
        and to keep them engaged in school.
        <bullet>  The addition of high-quality teaching time is of 
        particular benefit to certain groups of students, such as low-
        income students and others who have little opportunity for 
        learning outside of school.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
